<html>
<title> - FRONT-LINE DEFENSE: SECURITY TRAINING FOR MASS TRANSIT AND RAIL EMPLOYEES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




    FRONT-LINE DEFENSE: SECURITY TRAINING FOR MASS TRANSIT AND RAIL 
                               EMPLOYEES

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2006

                               __________

                           Serial No. 109-107

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


         [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]








  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

35-629 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


























                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

        .........................................................

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity



                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Peter T. King, New York (ex          (ex officio)
officio)

                                  (II)

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity.     1
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity.    15
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    19
The Honorable James R. Langevin, a Representative in Congress 
  From the State Rhode Island....................................     2

                               Witnesses

Mr. William Fagan, Director of Security, Federal Railroad 
  Administration.................................................    18
Mr. Terry Rosapep, Deputy Associate Administrator, Office of 
  Program Management, Federal Transit Agency:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. John Sammon, Assistant Administrator, Transportation Sector 
  Network Management, Transportation Security Administration:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                                Panel II

Mr. Edward Hamberger, President & CEO, American Association of 
  Railroads:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Chief Polly Hanson, Metro Transit Police Department, Washington 
  Metro Area Transit Authority:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. John P. Tolman, Vice President and National Legislative 
  Representative, Brotherhood of Locomotive Engineers:
  Oral Statement.................................................    31
  Prepared Statement.............................................    32
Mr. Ed Wytkind, President, Transportation Trades Department, AFL-
  CIO:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27


























 
    FRONT-LINE DEFENSE: SECURITY TRAINING FOR MASS TRANSIT AND RAIL 
                               EMPLOYEES

                              ----------                              


                      Thursday, September 27, 2006

                     U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Economic Security, Infrastructure 
                             Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:21 a.m., in 
Room 311, Cannon House Office Building, Hon. Dan Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Sanchez, Dicks, and 
Langevin.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security's Subcommittee on Economic Security, Infrastructure 
Protection, and Cybersecurity will come to order.
    The subcommittee is meeting today to discuss security 
training for mass transit and rail employees. And I would like 
to thank everyone for being here today, especially our 
witnesses.
    We meet today to discuss security training programs for 
rail and mass transit agencies. The importance of railroads and 
mass transit to our daily lives and national economy cannot be 
overstated. Mass transit commuter rail and freight rail are 
responsible for moving millions of people every day and for 
delivering thousands of freight shipments across the country.
    The subcommittee has looked at the security of these 
important systems in a variety of ways. Last year, in the 
aftermath of the London subway attacks, we looked at the 
vulnerabilities of soft targets, including public 
transportation, and the security measures being taken to 
protect them. We also looked at the various ways the DHS and 
our rail and transit agencies were working to prevent a 
terrorist attack from ever occurring.
    Today we address another important component of our 
security, and that is training. Thousands of employees have 
been trained in the years since 9/11 on security issues, and 
these include police officers, emergency responders, management 
security officers, and sometimes front-line employees.
    We know that, in the event of an attack on our rail or mass 
transit facilities, employees will often be the first people 
impacted by the event. They will play a key role in managing 
the terror aftermath, evacuating civilians and providing first 
aid, which could significantly reduce the number of lives lost.
    In addition, rail and transit employees are an important 
part in the fight to prevent an attack from ever occurring. 
Employees such as operators, drivers, clerks, mechanics and 
other front-line employees are valuable allies, watching for 
suspicious activity and packages. These employees, who know 
their surroundings and work environment, are well-suited to 
identify when something or someone does not belong.
    It is important to note that much discussion has been given 
to security-specific training. And I just want to recognize 
that employees oftentimes receive other forms of training that 
may serve a dual purpose, such as emergency response training, 
which is applicable whether the incident was a terrorist attack 
or an accident.
    Our goal today is to hear what the federal government has 
been doing to provide employee training on security. In some 
instances, our transportation systems have gone beyond what the 
federal government has offered and have developed their own 
training courses. We look forward to learning about these, as 
well.
    Security training for employees is an important part of the 
overall effort to implement layered security measures. And I 
look forward to the testimony today about the numerous efforts 
to train employees to recognize and respond to potential 
security problems.
    And I certainly thank our witnesses for being here.
    And I would recognize the only other member of the 
subcommittee here, Mr. Langevin, if he has any comments at this 
time.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to welcome our witnesses here today. I look 
forward to your testimony on this very important topic.
    And I am pleased that this subcommittee is holding a 
hearing on security training for mass transit and rail 
employees.
    I, along with many of my colleagues, particularly Ms. 
Sanchez, have been very concerned about the fact that most mass 
transit and rail employees are not receiving comprehensive 
training on how to recognize and report potential threats, also 
to protect themselves and passengers, and to respond if there 
is an incident.
    Over the last 5 years, Congress has done a lot of talking 
about supporting first responders and providing them with the 
tools that they need. But when it comes to rail security, we 
must remember that, in the bombings of mass transit and rail 
systems in Madrid, London and Mumbai, the first people on the 
scene were transportation workers.
    In the critical first few minutes after an incident, 
transportation workers who have received adequate training can 
help save lives and mitigate the damage of an attack. The 
knowledge and experience that transportation workers have about 
their workplace is a critical resource in responding to an 
incident.
    We need to maximize the first-responder potential of all 
rail and mass transit employees by ensuring that they receive 
substantive security training.
    For this reason, I know my colleague Ms. Sanchez has 
proposed an amendment to the Transportation Security 
Authorization Bill that would have required rail and mass 
transit systems to establish security training programs for 
their workers. And during the discussion of this amendment, 
both Chairman King and Chairman Lungren indicated that they 
wanted to learn more about this important topic before acting. 
And so, we agreed to hold this hearing today.
    So I am pleased that we are able to consider this important 
topic before the October recess. And I am looking forward to 
discussion on all of the issues relating to employee training.
    And I want to thank, again, the witnesses for being here to 
share your insights and also, in particular, thank Chairman 
Lungren for holding this hearing.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lungren. Thank you very much, Mr. Langevin.
    And other members of the committee are reminded that 
opening statements may be submitted for the record.
    We are pleased to have two panels of distinguished 
witnesses before us today on this important topic.
    And I would just remind the witnesses that your entire 
written statements will appear in the record, and we would ask 
you to make opening 5-minute summaries of your statements.
    The chair would now recognize the first panel and ask Mr. 
John Sammon, the assistant administrator of the Transportation 
Sector Network Management Office at TSA, the Transportation 
Security Administration, to testify.

      STATEMENT OF JOHN SAMMON, ASSISTANT ADMINISTRATOR, 
   TRANSPORTATION SECTOR NETWORK MANAGEMENT, TRANSPORTATION 
                    SECURITY ADMINISTRATION

    Mr. Sammon. Thank you.
    Good morning, Mr. Chairman and members of the subcommittee. 
I am pleased to have this opportunity to testify on the 
important subject of security training for freight rail, mass 
transit, and passenger rail employees.
    I would like to highlight some of the important steps TSA 
is taking in partnership with DHS, DOT, state and local 
governments, and industry to ensure these employees receive the 
best training possible to protect themselves, the public, and 
the rail and mass transit systems.
    I first would like to introduce myself to the committee. I 
am the assistant administrator of TSA for the Office of 
Transportation Sector Network Management. TSA created that 
office in 2005 to open a direct line of communication and 
foster cooperation with the industry across 10 different modes 
of transportation, including mass transit and freight rail.
    Prior to joining TSA, I worked for more than 25 years in 
the transportation industry, including positions as senior vice 
president at CSX and Conrail. In these positions, I gained 
valuable experience working with network and customer partners 
to get things done.
    The Department of Homeland Security pursues a layered 
approach to security and transportation, including transit and 
rail security. The effort starts with gathering effective data 
analysis and dissemination of intelligence. The recent 
disruption of the terror plot in the United Kingdom and the 
developing plot targeting the underwater tunnels in New York 
and New Jersey illustrate the necessity of that approach.
    The best defenses are preventing the terrorists from ever 
reaching their targets and by creating visible, unpredictable 
deterrence environments to disrupt their planning capabilities.
    Transit and rail employees are part of America's first line 
of defense, and will be among our first responders in the event 
of a terrorist attack or other disruption in the transit 
system. We depend on their vigilance and observations to detect 
indicators of a developing plan or attack.
    The actions taken by these individuals in the critical 
moments immediately after an attack or disruption can 
significantly reduce the severity of injuries and the number of 
deaths. As a result, there is simply no substitute for security 
awareness and emergency response training for the nation's 
transit and rail employees.
    We must rely on and cultivate human capabilities to 
prevent, deter, detect and respond to security threats. These 
skills can be acquired through extensive training, rigorous 
emergency planning, and regular emergency testing and drills.
    We recognize that TSA and the transit and rail industry 
need to provide more training for more employees. While there 
are a number of cooperative initiatives being undertaken, the 
real story comes with the Transit Security Grant Program.
    It is TSA's intention to leverage this program to ensure 
that qualifying systems meet certain baseline standards. These 
standards include front-line employee awareness training, 
front-line employee response training, and emergency drill 
training; these in addition to incident response plans, 
vulnerability assessments, mitigation plans, invisible/
unpredictable deterrence programs.
    By leveraging in excess of $100 million in security grants 
in fiscal year 2006 and $175 million in fiscal year 2007, TSA 
can focus the transit agencies on training before technology. 
And we can use that transit grant funding to bring training up 
to baseline standards across the nation.
    TSA is acutely aware of the importance of training in the 
freight rail area. And this year, in conjunction with DOT, we 
issued a list of recommended security action items for rail 
carriers for the transport of toxic inhalation hazard 
materials. The list included recommendations that relate 
directly to continued education and training.
    Four video training modules have been developed by the 
railroad industry over the past several years, covering 
security awareness training. These video training modules help 
front-line employees identify potential security breaches, 
threats, risks, and underscore the importance of reporting.
    Our general manager of freight rail has over 30 years of 
field operating experience in the railroad industry as general 
manager and vice president. He has directed our rail inspectors 
to conduct an initial assessment of how well the classroom 
training translates to security compliance in the day-to-day 
activities of the front-line employees. This assessment will 
include all rail carriers that transport toxic inhalation 
railcar shipments.
    In addition to the rail industry's training program, we are 
currently developing an interactive training program on the 
recognition of explosive devices on railcars and rail property. 
This will be made available to the rail carriers at no cost in 
the coming months.
    In summary, we value the critical role that Congress, and 
especially this subcommittee, plays in the effort to protect 
rail security. We look forward to working with you in the 
future to achieve this goal.
    Thank you. And I would be pleased to respond to any 
questions later.
    [The statement of Mr. Sammon follows:]

                  Prepared Statement of John P. Sammon

    Good morning Mr. Chairman, Ranking Member Sanchez, and Members of 
the Subcommittee. I am pleased to have this opportunity to testify on 
the important subject of security training for freight rail, mass 
transit, and passenger rail employees.
    America has some form of rail transit (i.e., some combination of 
subway, light rail and/or commuter rail systems) in 30 cities in 22 
states. These systems provide 11.3 million passenger trips each 
weekday. In fact, of the 3.5 billion rail trips taken annually, 77 
percent are on heavy rail systems, more commonly known as subways. As 
you know, public transportation is inherently an open, accessible 
system intended to help people move rapidly and efficiently between 
home and work, shopping, medical care, and other community activities 
on a daily basis.

Federal Rail Transit Security Initiatives Since 9/11
    Immediately following September 11, 2001, the Federal Transit 
Administration (FTA) of the Department of Transportation (DOT) 
undertook an aggressive nationwide security program and led the initial 
Federal effort on transit security. The initial response included 
conducting threat and vulnerability assessments in 37 large transit 
systems, 30 of which carry almost 90 percent of all transit riders. The 
assessments gave us a comprehensive view of transit system readiness, 
vulnerabilities, and consequences and identified the three important 
areas that continue to form the fundamental baseline of transit 
security: employee training, public awareness and emergency 
preparedness. TSA continues to build upon these fundamentals.
    In 2002, to help guide transit agency priorities, FTA issued a Top 
20 Security Action Item List to improve transit safety and security 
operations, particularly with regard to employee training, public 
awareness, and emergency preparedness. In a joint effort coordinated 
with the Mass Transit Sector Coordinating Council, TSA and FTA revised 
the Security Action Items this year.

The Role of Transit Employees in Transit Security
    Transit employees are part of America's first line of defense and 
will be our first responders in the event of a terrorist attack or 
other emergency on a transit system. Their vigilant observations may 
detect indicators of a developing plan or attack. Their actions taken 
in the critical moments immediately after an attack or an emergency can 
significantly reduce the severity of injuries and the number of deaths 
that result. As a result, there is simply no substitute for security 
awareness and emergency response training for transit employees. We 
must rely on--and cultivate--human capabilities to prevent, detect, and 
respond to security threats.
    The 400,000-plus transit employees throughout America are the 
``eyes and ears'' of our most important security system. Transit 
employees travel the same routes, maintain the same facilities, and see 
the same people every day as they go about their duties. They are in 
the best position to identify unusual packages, suspicious substances, 
and people who are acting suspiciously. But they need to develop an 
understanding of what to look for and skills in how to respond. These 
skills can be acquired through extensive training, rigorous emergency 
planning, and regular emergency testing and drills.
Rail Transit Security Training Initiatives at TSA
    I want to affirm that training remains a core fundamental for TSA. 
We understand that training and preparedness are critical if transit 
agencies are to respond appropriately to a terrorist attack or a 
natural disaster. We recognize that TSA and the transit industry need 
to provide more training for more employees to realize our goal of 
thoroughly integrating security awareness training as part of the 
security paradigm.
    In fiscal year 2006, TSA provided nearly $1.5 million in direct 
financial support for the implementation and continuing development of 
programs to enhance transit security, most notably security training 
for transit employees. Of the allocation, $1,196,000 enables expansion 
of multiple Federal training programs that have come to be recognized 
for their quality and are widely used by transit systems. This funding 
will enable an additional 22 courses on Counter-Terrorism Strategies 
and the FTA developed Terrorist Activity Recognition and Reaction to be 
held over the next year. We continue to focus on training that outlines 
for transit employees actions that can be taken in the minutes 
preceding and immediately after an event that are crucial to mitigating 
the potential impact. Timely decisions by an operator or controller to 
determine whether to evacuate a train station or take it to the next 
station in the midst of a chemical event for example, are vital choices 
that dramatically affect the impact of an attack. TSA is funding an 
incident management course for operations control center personnel that 
will equip them with the skills to take operational actions to respond 
to a chemical, biological, or explosive incident. TSA's Surface 
Transportation Security Inspectors help facilitate the availability of 
course offerings to transit system security officials.
    TSA has a key role in awarding the $143 million for the 2006 
Transit Security Grant (TSGP) and Intercity Rail Security Grant 
Programs. Working in concert with our partners, TSA has worked to 
streamline the TSGP process, ensure that the resources are focused on 
key risk reduction priorities. One of the security priorities 
emphasized in the 2006 TSGP is the expansion of employee training 
programs that emphasize basic security awareness for front line 
employees, equipment familiarization, incident severity assessing and 
reporting, crew communication and coordination, operational response 
and evacuation procedures. As we move into the next cycle of grant 
allocations, TSA wants to ensure that transit agencies have implemented 
all the fundamentals before investments are made in other projects that 
do not have the return on investment that fundamental training programs 
provide. To date, we have awarded almost $400 million over the last 
three years with training as one of the key focus areas.
    Congress authorized and funded TSA to hire 100 Surface 
Transportation Security Inspectors (STSIs), which we completed in 
October 2005. Our inspectors are in the field every day across the 
country, working to raise the baseline of security throughout the 
industry. To date, our inspectors have surveyed and assessed over 750 
properties. They have an assessment tool that measures an agency's 
level of training for frontline staff and other personnel in addition 
to monitoring other key security action items. Further, TSA's STSIs are 
also empowered to provide federal assistance through existing programs 
to help local agencies improve their security standards. Some of the 
assistance that is offered includes Visible Intermodal Protection 
Response teams, explosive detection canine assistance, joint public 
awareness campaigns, and exercise and drill expertise.
    Through our work with the Federal Law Enforcement Training Center 
(FLETC) TSA has trained over 480 law enforcement officers, transit 
police, transit system security directors and security coordinators, 
and other first responders through the Land Transportation Anti-
Terrorism Training Program. This program provides training to local 
authorities in protecting land transportation infrastructure including 
rail, light rail, mass transit, and bus operations. Areas of focus 
include security planning, transit system vulnerabilities, contingency 
planning, recognition and response for threats involving explosives and 
weapons of mass destruction, and crisis and consequence management. In 
Fiscal Year 2006 alone, 240 persons have completed the program.
    TSA will continue to monitor the level of industry compliance with 
the baseline security action items. The results of these assessments 
will determine if additional regulatory steps are needed to ensure that 
a strong security baseline including a well trained workforce is in 
place.
    TSA remains mindful that it must have a layered approach to 
security. We understand that information sharing, both classified and 
unclassified, is a critical component to working with industry to 
prevent and respond to attacks. We have made significant improvements 
in our ability to communicate with transit agencies. TSA communicates 
with the top 100 transit agencies regularly. We are working 
aggressively to expand access to secure phones so that we can provide 
them access to sensitive threat information in real time. Another layer 
is the use of canine teams in transit systems.
    Currently, we have 33 canine teams deployed in 11 systems and we 
expect additional agencies will be added to our canine program this 
year. We also appreciate your support in providing funding requested in 
FY 2007 to support Transit Watch, a program that encourages public 
awareness and preparedness. We will continue to add measures and 
support programs to enhance a layered security approach prioritize 
training among the many measures systems can take.

Freight Rail Security Training Initiatives
    TSA is acutely aware of the importance of security training in the 
freight rail arena. This year, in conjunction with DOT, we issued a 
list of recommended security action items to rail carriers for the 
transport of toxic inhalation hazard (TIH) materials. Included in these 
security action items are recommendations that directly relate to 
continued education and training. We are currently developing a CD-ROM 
based interactive training program on the recognition of improvised 
explosive devices on railcars and on railroad property. This training 
will be made available to rail carriers at no cost in the next couple 
of months.
    TSA, other DHS components, and the Federal Railroad Administration 
(FRA), in cooperation with affected railroads, conduct high threat 
urban area (HTUA) assessments in order to identify the vulnerabilities 
of selected urban areas where TIH shipments are moved in significant 
quantity. TSA has developed a risk assessment tool in coordination with 
railroad owners and operators and federal agencies participating in the 
HTUAs. TSA has provided a comprehensive training program for railroad 
security directors to effectively use this tool. TSA has also developed 
a Rail Corridor Risk Management Tool for use by freight owners and 
operators nationwide where on-the-ground assessments are not conducted.

Conclusion
    In closing, the nation's rail and transit operators and their 
employees have responded admirably to the new threat environment. 
Thanks to their efforts, passenger and freight rail is more secure and 
better prepared to respond to emergencies than ever before. However, we 
must continue to focus on this important issue, including ensuring that 
training is disseminated throughout transit organizations, that 
employees are receiving refresher training, and that we are developing 
training to address the emerging needs of the transit environment.
    I appreciate the opportunity to provide this important update on 
rail security. We value the critical role the Congress, and especially 
this Subcommittee, plays in the effort to protect rail security. We 
look forward to working with you on the full range of subjects so 
critical to protecting America's transportation infrastructure, its 
passengers, and the commerce that it carries.
    Thank you. I would be pleased to respond to questions.

    Mr. Lungren. Thank you very much, Mr. Sammon, for your 
testimony.
    The chair would now recognize Mr. Terry Rosapep, the deputy 
associate administrator, Office of Program Management at the 
Federal Transit Agency, to testify.
    I understand that while you will be testifying for the 
Department of Transportation, you also have Mr. William Fagan, 
the director of security at the Federal Railroad 
Administration, to answer questions regarding training for rail 
at DOT.
    Thank you, both, for being here.
    And, sir, you may proceed.

  STATEMENT OF TERRY ROSAPEP, DEPUTY ASSOCIATE ADMINISTRTOR, 
  OFFICE OF PROGRAM MANAGEMENT, FEDERAL TRANSIT ADMINISTRATION

    Mr. Rosapep. Thank you.
    Mr. Chairman, Congresswoman Sanchez, Congressman Langevin 
and members of the subcommittee, I am pleased to have this 
opportunity to discuss security training for transit and 
railroad employees and the Department of the Transportation's 
initiatives in that area, first by highlighting the Federal 
Transit Administration's involvement in transit security and 
then the involvement by the Federal Railroad Administration.
    The FTA, its federal and state partners, and the transit 
industry have built a solid foundation for security by focusing 
on three priorities: public awareness, emergency preparedness 
and employee training.
    Since 9/11, FTA has delivered security training to almost 
80,000 transit employees in an ongoing collaboration with NTI--
the National Transit Institute at Rutgers University--DOT's 
Transportation Safety Institute, and the Johns Hopkins 
University.
    FTA now coordinates security training through the public 
transportation annex to the DOT-DHS memorandum of 
understanding, which sets out the respective roles of the 
departments on security issues.
    The annex's executive steering committee oversees eight 
project management teams. The training team looks specifically 
at how to develop new courses on timely security topics. The 
safety and security roundtables team also enhances security 
training through direct outreach to the security chiefs at the 
50 largest transit agencies. Another team is dedicated to the 
Transit Watch program, which is tantamount to a security 
training for passengers.
    In partnership with Johns Hopkins, FTA has developed and is 
delivering a course on strategic counterterrorism for transit 
managers. In addition, a security training assessment for the 
30 largest transit agencies, and also for 20 smaller ones, is 
being completed. And that will give us a better baseline to 
determine training needs throughout the industry.
    With NTI, FTA is working to deliver several security 
training courses. These include chem-bio and explosive incident 
management, as well as systems security awareness, which 
imparts basic security skills to front-line employees.
    FTA has collaborated with DOT's Transportation Safety 
Institute on six specific security training courses. Topical 
areas include security design review principles, bus and rail 
hijackings, and response to threats posed by weapons of mass 
destruction.
    Turning to FRA, FRA promotes the safety of the U.S. 
railroad industry and works closely with its federal and state 
partners in the railroad industry in addressing training and 
other security issues.
    In the area of freight rail security, FRA worked closely 
with the DOT's Pipeline and Hazardous Materials Safety 
Administration, PHMSA, on a March 2003 regulation requiring 
each shipper and carrier of significant quantities of HAZMAT to 
adopt and comply with a security plan.
    PHMSA regulations require each company to give its 
employees both security awareness training and in-depth 
security training concerning the company's security plan and 
its implementation.
    To date, FRA has reviewed more than 6,000 security plans 
and conducted some 4,000 inspections for compliance with the 
regulations security training requirements.
    Further, in June of this year, FRA, TSA and the railroads 
agreed on voluntary security action steps the industry should 
take to enhance security in the transportation of toxic 
inhalation hazard materials, TIH. The action items include 
regularly reinforcing security awareness and operational 
security concepts to all employees, and training employees to 
recognize suspicious activity, to report security concerns 
stemming from the inspection of cars containing TIH materials.
    FRA and TSA have also assisted the freight railroads with 
instituting their own more comprehensive security plans, and 
have provided input to employee security training modules which 
the railroads and NTI are now developing.
    In the area of passenger railroad security, FRA issued 
regulations in 1998 requiring passenger railroads to prepare 
and secure FRA approval of plans to address emergencies, 
conduct employee training on the plans, and conduct emergency 
simulations. In addition, Amtrak and the commuter railroads 
have instituted their own security plans and conduct their own 
security training.
    Mr. Chairman and members of the subcommittee, be assured 
that the Department of Transportation will continue to work 
with DHS to strengthen transit and rail security. We look 
forward to continuing to work with Congress to advance the 
shared goal of protecting our transit and rail infrastructure.
    We will be happy to answer any of the questions you may 
have. Thank you.
    [The statement of Mr. Rosapep follows:]

                  Prepared Statement of Terry Rosapep

    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to testify today on behalf of the Secretary of 
Transportation and the Federal Transit Administration (FTA). I am 
pleased to have this opportunity, with my colleague, William Fagan, 
Director of Security at the Federal Railroad Administration (FRA), to 
update you on transit and rail security training and the U. S. 
Department of Transportation's (DOT) initiatives in that area.

FTA and Transit Security
    America's transit system is complex, dynamic, interconnected, and 
composed of over 6,000 local systems. By their nature, these systems--
and the entire transit network--are open and accessible, and therefore 
difficult to secure. Each workday, transit and commuter rail systems 
move approximately 14 million passengers in the United States.
    FTA, its Federal and state partners, and the transit industry have 
built a solid foundation for security in the years following the 
attacks of September 11, by focusing on three security priorities: 
public awareness, employee training, and emergency preparedness. FTA 
has designed its security training programs with the certainty that 
regardless of where an attack comes from or how it is devised, security 
training of employees and passenger awareness will always help to 
prevent or mitigate damage.
    Since September 11, in our ongoing collaboration with partners at 
the National Transit Institute (NTI) of Rutgers University, the 
Transportation Safety Institute (TSI) of the Department of 
Transportation, and Johns Hopkins University (JHU), FTA has delivered 
security training to almost 80,000 transit employees nationwide. We 
have utilized an array of formats for security training, ranging from 
classroom instruction and roundtables to videos and toolkits, to suit 
the needs of each audience and to disseminate broadly our knowledge 
about security.
    In September 2005, FTA and two agencies within the Department 
Homeland Security--the Transportation Security Administration (TSA) and 
the Office for Domestic Preparedness, now the Office of Grants and 
Training (G&T), signed the Public Transportation Security Annex to the 
Department of Transportation (DOT/Department of Homeland Security (DHS) 
Memorandum of Understanding (MOU) on security. The annex identifies 
specific areas of coordination among the parties, including citizen 
awareness, training, exercises, risk assessments, and information 
sharing. To implement the Annex, the three agencies have developed a 
framework that leverages each agency's resources and capabilities.
    With the Annex in place as a blueprint, FTA, TSA and G&T have 
established an Executive Steering Committee that interacts with DHS, 
DOT, and transit industry leaders. This committee oversees eight 
project management teams that spearhead the Annex's programs. Each of 
these programs advances one or more of FTA's three security priority 
areas, which again are public awareness, employee training, and 
emergency preparedness. We have been implementing the Annex 
energetically since its inception.
    The ``Training Team'' looks specifically at how to develop new 
courses on timely, cutting-edge security topics such as strategic 
counter-terrorism, and biological and chemical threats. The Annex's 
``Safety and Security Roundtables'' team also enhances security 
training. It works on direct outreach to the transit industry, and 
plans two educational events a year for the security chiefs of the 50 
largest transit agencies. Transit security leaders have responded 
favorably to opportunities for peer-to-peer forums, and the security 
roundtables provide just that. The next roundtable, our third, will be 
held in December 2006 in Secaucus, New Jersey.
    It is also worth noting that the Annex includes a team dedicated to 
the ``Transit Watch'' program, which is tantamount to a security 
training initiative that teaches transit passengers to become more 
mindful of their environment in the context of risks of the times for 
terrorism.
    FTA, with our Federal partners at DHS, continues to work with Johns 
Hopkins, TSI, and NTI to deliver and develop security training 
programs.
    Before I detail these course offerings, I would like to call your 
attention to a few highlights. First, FTA's course offerings are 
comprehensive and focus on all transit environments, including smaller 
agencies. Second, security training aims to disseminate the most 
current and up to date thinking on the most current and up to date 
threat information for the transit industry. Third, these courses cover 
a comprehensive range of topics that mesh with transit industry 
realities and needs. Finally, FTA's courses equip transit agencies to 
implement security training for all of their employees. This magnifies 
the impact of security training courses, as it encourages those we 
educate to educate, in turn, their peers and employees.
    In partnership with JHU, FTA has already piloted and revised a two-
day course on Strategic Counter-Terrorism for Transit Managers. This 
course provides counter-terrorism management training to transit police 
and security forces in a large enough number to ensure a core, 
consistent approach to security planning across transit agencies.
    With JHU, FTA has also developed a Strategic Curriculum Development 
Guidance Document, which is an essential tool for standardized, high 
quality security training.
    Finally, in conjunction with JHU, FTA is just now completing the 
Security Training Assessment for Top 30 Transit Agencies, and for 20 
smaller agencies. This assessment will help FTA and our partners in the 
Federal government identify security training gaps and needs in the 
industry. Usefully, it takes into account smaller agencies, whose 
requirements and characteristics often differ from those of larger 
urban systems.
    FTA is working with NTI to deliver six security training 
initiatives for the transit industry:
    The System Security Awareness for Transportation Employees training 
that FTA developed with NTI imparts basic security skills and is 
offered in the form of a four-hour class, DVD/video or employee 
handouts. FTA has also distributed over 4,200 copies of its system 
security awareness Warning Signs video, developed in collaboration with 
NTI. FTA is in the process of developing a parallel video targeted 
specifically to smaller transit agencies.
    FTA has just developed a six-hour course on Chemical/Biological and 
Explosive Incident Management for Operations Control Center Personnel. 
This course has been developed and is currently being delivered to ten 
transit agencies in large metro areas; an additional 20 deliveries will 
be scheduled for 2007.
    The Terrorist Activity Recognition and Reaction course draws on 
FTA's work with Israeli experts on passenger monitoring, and lessons 
learned from Israel's security experts. FTA has already reached 6,000 
employees with this material. In the next quarter, FTA plans to 
complete two additional training initiatives with NTI. The first is an 
Emergency Drills/ Exercise Guidance Document for transit agencies. The 
second is a new training course that will help ensure that transit 
employees can use the National Incident Management System for Transit 
to collaborate effectively with emergency responders and services 
during an incident.
    During 2006, FTA has collaborated with TSI to offer or develop six 
security training courses.
    In June, FTA and TSI offered a Crime Prevention through 
Environmental Design course in El Paso, Texas; FTA is now developing a 
Security Design training course with TSI that achieves the same purpose 
but with the emphasis against terrorism.
    From April to August of this year, FTA offered its Transit System 
Security course five times. This course encourages participants to 
develop and implement security policies in a uniform format. The FTA-
TSI course in Effectively Managing Transit Emergencies also takes a 
broad perspective and teaches transit employees how to understand the 
emergency management concept.
    Two additional courses train employees to handle specific kinds of 
security threats. FTA offered the Threat Management and Emergency 
Response to Bus and Rail Hijackings course eight times this year. It 
also offered a course in the Transit Response to Weapons of Mass 
Destruction.
    TSI is in the process of updating and revising all of its courses 
so as to be in compliance with FTA and DHS requirements.
    As this brief review illustrates, FTA has forged successful 
collaborations both within the Federal government, between the 
government and the transit industry, and with JHU, NTI and TSI, to 
develop and disseminate the latest security training and knowledge. 
FTA's work with these organizations and within the MOU Annex is the 
primary way that we influence security training practices in the 
transit industry.

FRA's Role in Railroad Security
    FRA's primary mission is to promote the safety of the U.S. railroad 
industry. FRA's railroad safety mission necessarily includes its 
involvement in railroad security issues, and FRA works closely with TSA 
and the railroad industry on a daily basis in addressing railroad 
security issues.
    The United States railroad network is a vital link in the Nation's 
transportation system and is critical to the economy, national defense, 
and public health. Amtrak and commuter railroads provide passenger rail 
service to more than 500 million passengers yearly. Freight railroads 
connect businesses with each other across the country and with markets 
overseas, moving 42 percent of all intercity freight, measured in ton-
miles. Passenger and freight railroads operate over 170,000 route miles 
of track and employ over 227,000 workers.
    FRA's involvement in railroad security predates the terrorist 
attacks on September 11, 2001. From 1997 through the enactment of the 
USA PATRIOT Improvement and Reauthorization Act of 2005 in March of 
this year, DOT worked closely with Congress to secure the enactment of 
Federal criminal legislation to more effectively deter and punish 
terrorist who attack railroads and mass transportation systems. In 
1998, FRA issued regulations requiring passenger railroads to prepare 
and secure FRA approval of plans to address emergencies (such as 
security threats), conduct employee training on the plan, and conduct 
emergency simulations. This regulation is discussed in more detail 
below.
    Since the terrorist atrocities on September 11, 2001, FRA has been 
actively engaged in the railroad industry's response to the terrorist 
threat. The railroads have developed their own security plans, and FRA 
has worked with the railroads, rail labor, and law enforcement 
personnel to develop the Railway Alert Network, which enables timely 
distribution of information and intelligence on security issues. 
Working with the FTA, we have participated in security risk assessments 
on commuter railroads, and we have conducted security risk assessments 
of Amtrak as well. FRA's security director works on a daily basis to 
facilitate communications on security issues between government 
agencies and the railroad industry.

Freight Railroad Security
    A special focus for FRA and DOT, collectively, is the security of 
hazmat transported by rail. A major initiative to improve hazmat 
security has been the Pipeline and Hazardous Materials Safety 
Administration's (PHMSA) March 2003 regulation requiring each shipper 
and carrier of significant quantities (amounts for which placards are 
required) of hazmat to adopt and comply with a security plan. Under the 
regulation, security plans must include an assessment of security risks 
and appropriate countermeasures or mitigation strategies, or both, to 
address those risks. The plans must, at a minimum, address three 
specific areas: the company personnel who prepare and handle hazmat 
shipments; unauthorized access to hazmat shipments or transport 
conveyances; and the security of hazmat shipped or transported by the 
company from its origin to its destination. To assist railroads that 
transport hazmat and shippers that offer hazmat for transportation by 
rail to comply with this regulation, particularly small--and medium-
sized companies, FRA and PHMSA developed a program on how to write and 
implement security plans for their companies. FRA, PHMSA, and TSA have 
been working together on developing proposed revisions to the PHMSA 
rule.
    FRA recognizes that railroad and shipper employees' awareness and 
understanding of the PHMSA regulation and procedures governing the safe 
and secure transportation of hazmat shipments are critical. Therefore, 
PHMSA's regulation provides for safety and security training for 
employees engaged in the transportation of hazmat. Specifically, every 
shipper and carrier of hazmat must give its employees training in 
awareness of risks associated with hazmat transportation and methods 
designed to enhance hazmat transportation security. In addition, every 
shipper and carrier required to have a security plan must give its 
employees in-depth security training concerning the company's security 
plan and its implementation. These training requirements are also 
recurrent; employees must receive the required training at least every 
three years. To date, FRA personnel have reviewed more than 6,105 
security plans (including the plans for all Class I freight railroad 
carriers) and conducted 4,054 inspections for compliance with the 
security training requirements.
    Further, as a result of extensive collaboration with the freight 
railroad industry, on June 23, 2006, DHS and DOT issued ``Recommended 
Security Action Items for the Rail Transportation of Toxic Inhalation 
Hazard (TIH) Materials.'' The Action Items are based on lessons learned 
from an assessment of high-threat urban area rail corridors and from 
reviews of railroads? security plans. Implementation of the Action 
Items is expected to raise the security baseline for the transportation 
of TIH materials. We believe the Security Action Items are of great 
value and can be quickly implemented. They include regularly 
reinforcing security awareness and operational security concepts to all 
employees at all levels of the organization, training employees to 
recognize suspicious activity and report security concerns found during 
inspections of cars containing TIH materials, and other security 
training program elements. DOT and TSA are monitoring implementation of 
the Action Items and, should they not be voluntarily adopted as 
expected, we will consider more formally instituting the Action Items.
    While we must remain ever vigilant to secure hazmat shipments on 
our Nation's railroads, for the sake of railroad employees and the 
public whom we all serve, it bears emphasis that the vast majority of 
hazmat shipments arrive at their destinations safely; few tank cars 
have leaks or spills of any kind; fewer still are breached in an 
accident or incident. Considering just chlorine, for example, since 
1965 (the earliest data available) there have been at least 2.2 million 
tank car shipments of chlorine?only 788 of which were involved in 
accidents (0.036 percent of all the shipments). Of those accidents, 
there were 11 instances of a catastrophic loss (i.e., a loss of all, or 
nearly all) of the chlorine lading (0.0005 percent of all the 
shipments). Of the 11 catastrophic losses, four resulted in fatalities 
(0.00018 percent of all the shipments). For all hazardous materials, in 
the 12 years from 1994 through 2005, hazardous materials released in 
railroad accidents resulted in a total of 14 fatalities. While one 
death is obviously too many, the record of transporting these 
commodities is very good.
    Railroads have also voluntarily imposed their own, additional 
security requirements addressing the security of not only hazmat but of 
freight in general. The Nation's freight railroads have developed and 
put in place security plans based on comprehensive risk analyses and 
the national intelligence community's best practices. The Association 
of American Railroads (AAR) has established guidance for the major 
freight railroads in the form of a model strategic security plan. 
Further, the AAR and Class I railroads have been working with the 
National Transit Institute at Rutgers University to develop employee 
training modules for security. With FRA and TSA input, four video 
modules have been developed covering security awareness training. In 
particular, the video training modules help frontline employees 
identify potential security breaches, threats and risks and explain how 
they should report them. A fifth training module is being developed to 
address the notification of employees in a security incident and what 
they need to do under the railroad's security plan, such as moving cars 
to more secure areas. Notably, the training is intended for all 
railroad employees--not just those employees responsible for the 
transportation of hazmat. The video training modules will be made part 
of a training library for use in recurrent training, rules classes, 
training of new employees, and other training. The training modules 
will also continue to be shared with the smaller railroads.

Passenger Railroad Security
    In the area of passenger railroad security, FRA requires railroads 
that operate intercity or commuter passenger train service or that host 
the operation of that service to adopt and comply with a written 
emergency preparedness plan approved by FRA. Each plan must address 
employee training and qualification. Crewmembers aboard a passenger 
train must be trained initially and then periodically every two years 
on the applicable plan provisions. At a minimum, training must include 
the following subjects: rail equipment familiarization; situational 
awareness; passenger evacuation; coordination of functions; and 
``hands-on'' instruction concerning the location, function, and 
operation of on-board emergency equipment. Personnel of a control 
center (a central location on a railroad with responsibility for 
directing the safe movement of trains) must also be trained initially 
and then periodically every two years on appropriate courses of action 
for potential emergency situations. This training must include dispatch 
territory familiarization and protocols governing internal 
communications between appropriate control center personnel whenever an 
imminent, potential emergency situation exists. Additionally, each 
railroad must establish and maintain a working relationship with 
emergency responders on its line by developing and making available a 
training program on the plan, inviting them to participate in emergency 
simulations, discussed more below, and by distributing updated plans to 
them, including documentation concerning the railroad's equipment, the 
physical characteristics of its line, necessary maps, and the position 
titles and telephone numbers of relevant railroad officers to contact. 
Further, railroads providing passenger service must periodically 
conduct full-scale passenger train emergency simulations and must 
conduct a debriefing and critique session after actual or simulated 
passenger train emergency situations. These requirements for full-scale 
simulations and for post-simulation and post-emergency debriefing help 
ensure that employees? abstract knowledge of emergency procedures is 
put into practice and then refined based on their collective 
experience.
    Amtrak and commuter railroads have instituted their own security 
plans and conduct security training. FRA assisted Amtrak in the 
development of its security plan. Specifically, in coordination with 
Amtrak's Inspector General, FRA contracted with the RAND Corporation to 
conduct a systematic review and assessment of Amtrak's security 
posture, corporate strategic security planning, and programs focusing 
on the adequacy of preparedness for combating terrorist threats.
    In partnership with FTA, FRA participated in security risk 
assessments on the ten largest commuter railroads and contributed the 
funding for security risk assessments on three of these railroads. FRA 
also participated in FTA's ``best practices tool kit'' initiative, 
contributing our knowledge of commuter rail operations, infrastructure, 
and organization to ensure that the recommended security enhancement 
measures were sound and feasible in a railroad environment. FRA staff 
worked closely with many of the railroads that receive FTA grant 
funding, to plan and assist in the development and implementation of 
security simulations and drills. FRA also devoted staff with both 
railroad knowledge and facilitation skills to the 17 FTA-sponsored 
workshops across the country (called ``Connecting Communities'') to 
bring together commuter railroads, emergency responders, and State and 
local government leaders so that they might better coordinate their 
security plans and emergency response efforts.
    The American Public Transportation Association (APTA) is also 
leading commuter railroads in the development of industry standards for 
passenger rail security. This initiative is in addition to APTA's 
system safety audit program, to which most commuter railroads 
subscribe, and which includes security as an element of overall system 
safety.
    Mr. Chairman and Members of the Subcommittee, be assured that the 
Department of Transportation will continue to strengthen transit and 
rail security. We look forward to continuing to work with Congress to 
advance the shared goal of protecting our transit and rail 
infrastructure, and all that rides on it. I, and my colleagues, will be 
happy to answer any questions you may have.

    Mr. Lungren. Thank you very much for your testimony. 
Appreciate it.
    I thank both the witnesses.
    And I thank you, Mr. Fagan, for being here to respond to 
questions as well.
    We will start the round of questioning. And I will yield 
myself 5 minutes for that purpose.
    We are going to have a second panel here, and we have two 
representatives of unions involved in the industry. And the 
tenor of one of the prepared statements is that we would hear a 
lot of good things from the administration but that, in fact, 
it is more talk than action. And the suggestion that the good 
work done by the National Transit Institute only represents 
training approximately 30 percent of the transit industry's 
total workforce.
    Mr. Sammon and Mr. Rosapep, how would you respond to that? 
I mean, I view that as a criticism, and I would like you to 
give us an answer.
    Mr. Sammon. Thank you. Let me start first.
    In terms of the overall federal spending that is available, 
DHS has made available about $18 billion to state and local 
governments. And they use that money in various and sundry 
ways, whether they use it for first responders, transit--
however they have been making decisions on that.
    There is about $4 billion, or $3.5 billion, a year 
available from FTA capital grants that there is more 
flexibility to use with training and also for capital security 
items.
    And I think, since 9/11, approximately $900 million from 
all federal agencies has been available for transit security.
    Now, in terms of the question of training, that is why what 
we want to do at TSA is in--TSA is now working with DHS in a 
lead role on the grants program. And what we want to do is, 
rather than have the grants go out simply for capital items, we 
want to require a baseline of training before people are 
eligible for capital grants.
    So we want to leverage that excess of $100 million to get 
the properties their front-line employee training up to 
standards. And that is what we plan to do and we want to do.
    And working with the unions--I worked at Conrail for quite 
some time, and we had at one point one of the worst safety 
records, and we turned it around to have one of the best safety 
records. And we did that by working with the people on the 
ground directly. Every one of our senior officers was out 
working with folks on the ground.
    So I think the front-line employees, at some point in this 
process, should be involved. And it is very important, because 
their attitude and their involvement take you from having a 
training and awareness program that is on paper versus a real, 
robust one in the field.
    Mr. Lungren. Is it ``Rosapep'' or ``Rosapep''? I want to 
make sure--
    Mr. Rosapep. It is ``Rosapep.''
    Mr. Lungren. Okay. Mr. Rosapep, could you respond to that, 
please?
    Mr. Rosapep. Yes, I would say that, you know, since 9/11, 
the training programs have in fact been focused on the largest 
30 transit agencies, as opposed to all of the systems out 
there. So we have a higher penetration of the top 30 agencies, 
probably more like that 60 percent of the employees. But 
overall, the 20 percent figure is correct.
    As an example, in your district--and we have been focusing 
on getting out the basic security awareness course to those top 
30 agencies. We have done Sacramento in your district. In 
Congresswoman Sanchez's district we have done the Orange County 
transit system, to get the basic security programs out there.
    But those are the larger ones.
    We are right now conducting an assessment of not only those 
top 30, to see how well we have penetrated and the training has 
gone down in those agencies, but we are also looking at a 
selection of 20 smaller agencies across the country as well, 
because we also think those are important.
    When we have that assessment complete, I think we will have 
a much better idea of what it is going to take to do the 
training that is necessary at the larger systems as well as the 
smaller ones and get a broader penetration throughout the 
industry of the training that is really necessary.
    Mr. Lungren. Have you had an opportunity to look at some of 
the systems themselves? That is, you say in Orange County and 
Sacramento they have had the training. In testimony that we 
have coming up later from one of the union representatives, 
mentions that the Washington, D.C. system has had training, the 
L.A. metro have trained their front-line employees. At least 
that is their statement.
    Have you had any opportunity to go in and look at the 
quality of that training that actually took place? I guess I 
would ask it this way: Are there any metrics, are there any 
performance standards, is there anything to show that it has 
taken?
    Mr. Rosapep. That really is part of the assessment we are 
doing, is to go back to those agencies that we have trained in 
the top 30 to see, has it been effective? And if it hasn't, why 
not and what can we do about it?
    Frankly, another parallel effort going on to actually 
define some performance metrics for training. All of us are 
party to this effort. But that will give us an ongoing way of 
measuring just how effective the training is on an ongoing 
basis.
    Mr. Lungren. Do you have any sense whether these systems 
sense the importance of this?
    That is, you look at the bottom line of an operation. 
Preparing for a terrorist attack, in many cases, might be the 
outlier, you know? It is something that we don't think is going 
to happen. That is, that could be the comment or a thought of 
an operator. Therefore, we can't justify it to our bottom line.
    Do we have that problem? Or is there a seriousness that you 
find with the operators you deal with that actually they 
understand how important this is?
    Mr. Rosapep. Our experience so far, it is not an issue of 
that. They sense the importance of it and are eager to get the 
training.
    The other side of it, too, is, so much of the, what we 
call, security training is just as applicable to safety issues. 
In fact, it is hard to define a clear line between the two.
    And the fact is, our transit agencies have been doing 
safety training and safety programs for years and years. They 
know the importance of it. Some of these new security programs 
add a new twist to it, but it is not something that they have 
to be convinced of, that it is something that they would like 
and need to do.
    Mr. Lungren. Okay. My time is up.
    The gentlelady from California, the ranking member of this 
subcommittee, Ms. Sanchez, is recognized for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. I am sorry for 
arriving late, but I do thank you for this hearing. I think it 
is very important, because I have been hearing from a lot of 
different areas with respect to training and the security on 
the different rail line, in particular.
    So let me get this--I am a little bit concerned about, in 
talking to people about the perceived lack of coordination 
between the Department of Homeland Security and Transportation. 
There appears to be a lot of overlap and duplication with 
regards to security training.
    And, you know, there are very few resources. I used to do 
transportation consultation many decades ago, and so really 
understand, in particular for mass transit, what it takes to 
move people and where the monies are coming from, and the lack 
of monies.
    So who is the primary department and agency responsible for 
security training? And what steps are you taking to improve the 
coordination between the two departments?
    And my second question has to deal with this issue of 
whether TSA is just acting as a passthrough to give monies, 
then, over to, let's say, FTA for this security training. It 
seems to me that there recently was, for example, a $1.5 
million transfer from TSA to the FTA and another $200,000 
transfer that was made last year.
    So is TSA developing the training? Is it just moving the 
money over to FTA? Should we just be giving the money directly 
to FTA? What is the coordination, and who is really doing this?
    And if you answered this before I walked in, I am sorry, 
but I need to, sort of, understand.
    Mr. Sammon. No, that is a very good question.
    I think, if you go back before 9/11, as discussed a few 
minutes ago, I think most of the training and efforts in terms 
of security and safety were handled by the FTA. And in many 
cases, if you think about security, ``Am I going to be 
mugged?'' or ``Is this a terrorist attack?'', a lot of the 
things involved--there is a fine line in terms of separating 
both of them.
    So in the past, and in their roles of dealing with the 
nation's transit agencies, FTA--in the testimony he has gone 
through--developing a number of training programs in dealing 
with the agencies.
    In my discussions with the agencies, they want to deal 
with?it is fine that the federal government has all these 
different security agencies. But in terms of, if you are going 
to have programs and training programs and we are going to do 
training--for instance, if you do safety training and you take 
an operator out of his equipment for the day and he is going to 
be in a room, you can do both safety training and security 
training. Security training can be against a criminal, and it 
can also be terrorist security training. It is effective to do 
it all at once in modules.
    So a lot of the development of the training programs has 
been developed by FTA. And TSA supports that effort.
    What TSA is doing and what we want to do is, in terms of, 
are the transit agencies at a baseline standard of training, 
are they there? And we want to use the grant program through 
DHS as the incentive to get people to the baseline of training.
    In the other part of my oral testimony today, we mentioned 
what we are doing in the rail industry. The rail industry has 
developed a four-part module, in terms of training for real 
employees and security awareness and so on. What we want to do 
with our inspectors is to make sure to see the effectiveness as 
it applies to the ground, their day-to-day activities, and how 
that applies.
    So I think, in terms of this, TSA is working?we have a 
memorandum of understanding with FTA and FRA. We work closely 
with them, in terms of these issues.
    Ms. Sanchez. My last question to you: It is my 
understanding that TSA has frozen all promotions and hiring for 
rail and mass transit officials at TSA, in addition to halting 
initiatives in these areas, due to funding shortfalls. Is there 
a shortfall?
    Mr. Sammon. What we have--I recently hired the general 
management of rail from--promoted Gil Kovar, who is sitting in 
the audience here. He has 30 years of experience in the rail 
industry as a senior line operating person. We have made 
permanent nine of the 11 general managers since I arrived, and 
we hope to have a transit general manager here shortly.
    So, we have been hiring people. We brought on an air cargo 
executive on Monday, who is retired, who is from Emery 
Worldwide. So we have been hiring people.
    In terms of a--
    Ms. Sanchez. So you haven't frozen promotions or stopped 
hiring of rail and mass transit officials?
    Mr. Sammon. I haven't stopped any hiring per se.
    What I have done since I have gotten there, in terms of 
looking at the overall resource of the group that I have, I 
want to make sure that the resources are in the right place. We 
may have too many people in one area and not enough people in 
another, and I am making that determination.
    So, before I fill jobs just because they were there before, 
I want to make sure we are filling the right jobs in the right 
places, and that TSA is putting its resources and using its 
resources most effectively.
    Ms. Sanchez. Let me ask it just one different way. I see 
that my time is up.
    So there is no freezing of hiring into positions in--
    Mr. Sammon. I just hired the cargo general manager on 
Monday. But I have told people what I want to do--
    Ms. Sanchez. What about the lower rungs? Is there an 
official freeze?
    Mr. Sammon. There is not an official freeze. What we are 
doing is, in terms of the vacancies we have, I want a review 
and justification of all the vacancies in terms of the 
priorities of TSA, to make sure we are putting people in the 
right jobs rather than filling historic vacancies.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Lungren. Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, gentlemen, thank you, again, for your testimony, for 
being here today.
    One of my concerns, in terms of what I have heard both from 
constituents and just on a general topic, is related to Amtrak 
police officers. And I am sure that we all agree that if you 
want to hire and retain good people, we have to pay them 
fairly.
    So I am going to address my question to Mr. Fagan.
    Mr. Fagan, as the director of security for the Federal 
Railroad Administration, you probably understand more than most 
people the need for a steady workforce of railroad police 
officers.
    And railroad police officers obviously serve on the front 
lines to ensure passenger safety. They are responsible for 
ensuring both the trains and the stations are secure, and 
assisting passengers with any security concerns that they may 
have.
    It is therefore important that they be compensated fairly 
and granted equitable contracts under which to work.
    Now, while I understand that you don't work for Amtrak, I 
am sure that you have heard that Amtrak's police officers have 
been operating now without a contract for 7 years--7 years.
    Now, the Amtrak police officers right now, as I understand 
it, are not paid commensurate with what their counterparts 
working for other rail companies make. Additionally, while they 
do receive cost-of-living adjustments, they are less than 
adequate, often amounting to an increase of one penny a month.
    So this leads to the unfortunate truth that much of 
Amtrak's important police force leave to find better-paying 
jobs, which ultimately leaves gaping holes in rail security.
    So my question is, have you heard of this problem 
occurring? And do you think the Amtrak police officers should 
be operating under an updated contract? And do you think that 
this is a problem confined to Amtrak, or is it spilling over 
into other railroad police officers?
    And finally, in your capacity as the director of security 
for the Federal Railroad Administration, what can you do to 
help ensure Amtrak retains its important police force?
    Mr. Fagan. Sir, I am very proud of our police officers both 
at the railroad and transit industry and in our local 
communities. Amtrak pay and personnel policies are an internal 
matter to the company. And we will review that question and 
provide you an answer in writing, sir.
    Mr. Langevin. I would appreciate that. Obviously, 7 years, 
I think even to a reasonable person, is a long time to go 
without a contract. And if they are only getting about a penny-
a-month increase in their cost-of-living adjustment, that is 
certainly not adequate. Doesn't speak well of morale, I am 
sure, and it is going to be harder and harder to retain good 
people. Particularly in this day and age, I think that is an 
important topic to address.
    If I could, my next question is for Mr. Sammon. We 
witnessed the horrible events that unfolded during the attacks 
on London's subway system just over a year ago, and we are 
fortunate that here in the United States we have not yet 
experienced that type of attack.
    And we are currently severely, in my opinion, underprepared 
to handle the results. Not only do we lack the capability to 
prevent such attacks from happening, but many of out nation's 
subway systems are still not cell-phone accessible, which means 
that it could take first responders an even longer time to hear 
about the attacks.
    Now, I understand that the Washington Metro system is 
fortunately able to accommodate the use of cell phones along 
much of the tracks. However, cell phone simply cannot operate 
in much of the New York City subway system, where most threats 
to our nation's mass transit have been received.
    So the fact that many of our nation's subway systems lack 
the ability to allow for the use of cell phones leaves our mass 
transit systems extremely vulnerable to attack.
    So my question, Mr. Sammon: Do you see this as a problem to 
our mass transit system? And how do you propose that we act to 
make all of our nation's subway systems cell-phone accessible?
    Mr. Sammon. That is a very good question. And I think what 
we would, in terms of the cell phone specific, I don't know 
that TSA has a specific plan on cell phones.
    Part of what we are looking for is the subway systems, in 
the context of the grant program, is, what is their response 
program? And part of that response program certainly is 
communication, and communication from the operators to the 
first responders.
    And we don't have a specific plan for cell phones 
specifically. However, if you look at the risk-based 
distribution of our grant money in the past, it has gone to?one 
of the items that goes into determining that risk-based 
assessment is miles of underground track and underground 
stations. So certainly the systems that have the kinds of 
vulnerabilities that you are speaking to do receive, have 
received in the past, most of the funding.
    And I will bring up the cell-phone communication to make 
sure that we do have that as an important part of that 
recognition of the kinds of grants and applications we look at. 
Because certainly, when we talk about response plans and 
effective response plans, if you can't communicate, you can't 
respond.
    Mr. Langevin. Well, that is exactly--
    Mr. Sammon. Yes. Good point.
    Mr. Langevin. --my concern, as well. And we don't want to 
be talking about it after the fact. The opportunity is here to 
do something about it now, and we certainly welcome the 
opportunity to work with you on that.
    Mr. Sammon. Very good.
    Mr. Lungren. The gentleman's time has expired.
    The gentleman from Washington is recognized for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman. And I appreciate the 
testimony of the witnesses.
    Mr. Sammon, why hasn't TSA required security training for 
rail and mass transit employees?
    Mr. Sammon. We are working with the transit industry to 
develop a 1-year action plan which includes, among other 
things, would be training. We are--
    Mr. Dicks. I mean, this seems to me this would be, like, 
the first thing we would do. But now 5 years have gone by, and 
we still don't require training. So are we just leaving it up 
to the transit agencies and the railroads to do this training 
themselves?
    Mr. Sammon. In the discussion we had before in the oral 
testimony, what I spoke about was using the excess of $100 
million in the grants program--
    Mr. Dicks. Who does that money go to?
    Mr. Sammon. That goes to the transit agencies.
    Mr. Dicks. But still, there is not a requirement that they 
use it for training.
    Mr. Sammon. There will be. And that is what we are doing 
and that is what we are changing in response to the 
recognition, first of all, the training is critical, training 
is essential.
    And in the past, in terms of the grants program, agencies 
could apply for training. Most apply for capital grants. But in 
their assessments of what is important, they have applied for 
training. They have not applied it for as many training 
programs--some have--as they have applied for capital.
    And what we want to do is raise a bar and have that bar set 
as we look at this next distribution of funds, to say, ``If you 
are not trained, in our opinion, to a proper level, we don't 
want to hand out money for technology before you do training.''
    So we may see, in this next round, a larger portion of that 
$130-or-so million go for training than it has in the past. 
Because it doesn't do any good for me to pay for--
    Mr. Dicks. When can we expect this requirement?
    Mr. Sammon. This requirement will--as we go through the 
2006 specifics, in terms of what specific projects will be 
approved, it will start coming out there. Now, will it be--
    Mr. Dicks. You mean 2007?
    Mr. Sammon. Well, we have--
    Mr. Dicks. We have got about 2 weeks to go, or a few days 
to go, in 2006.
    Mr. Sammon. Well, no, the amounts have been released, but 
the specific projects and what we will apply and how the 
money?and which projects apply, that will be done by the end of 
the year, certainly by 2007.
    And will it be done perfectly this first time? Probably 
not. But for 2007, people will understand the guidance and the 
requirements.
    But the training, we want--it doesn't do anybody any good 
to buy them a chem-bio detection unit if the employees don't 
know how to get out of the subway system or aren't trained to 
evacuate. So they have to be trained first, before we start 
layering in lots of technology on these systems.
    But we agree with the committee's assessment there.
    Mr. Dicks. Mr. Rosapep, do you think that TSA should 
mandate security training for mass transit employees?
    Mr. Rosapep. When you mandate something, we need to be 
prepared that we have the resources to make sure that the 
training is available so that the transit agencies can take 
care of that.
    We concur with the notion that the training has got to be 
there before people start buying technology. And FTA has been 
pushing that ourselves for a number of years.
    The courses that we have been pushing are those basic 
security awareness training for all the front-line staff. That 
plays in better to accomplishing that before funding goes in to 
the hard capital side of things.
    FTA's own programs, this year, people are now able to use 
their FTA capital formula funds for training purposes. That 
wasn't possible before this year. So there are new resources 
being made available for those agencies to be able to get the 
training that they need and want.
    Mr. Dicks. Okay. So you are saying, until this year, the 
money that we gave them was not available for training?
    Mr. Rosapep. For FTA's formula programs, they are strictly 
capital for the large agencies--
    Mr. Dicks. Right. Right.
    Mr. Rosapep. --so things like training and conducting 
emergency drills and preparing plans are operational, and they 
weren't eligible before.
    When Congress passed the new SAFE-T legislation for the 
transportation programs, they changed the definition of what is 
capital for FTA and for our transit agencies so that they can 
address security operational things, such as training.
    Mr. Dicks. Mr. Fagan, do you think TSA should mandate 
security training for rail employees?
    Mr. Fagan. Sir, the Federal Railroad Administration 
mandates emergency training for passenger railroad employees as 
well as security training for HAZMAT employees.
    In the passenger arena, we take a triad approach of 
training the front-line crew employees, personnel in the 
dispatch and control centers, as well as the local emergency 
responders.
    Mr. Dicks. Could I just--Mr. Chairman, I know I--just let 
me ask one--give me a second.
    FRA is doing this, right, as you said. But TSA is supposed 
to be responsible for this. Why are you doing it if TSA isn't 
doing it? Do you get my drift here?
    TSA is supposed to do this, right?
    Mr. Sammon. In terms of training?
    Mr. Dicks. Yes.
    Mr. Sammon. Yes. And that is why we wanted--
    Mr. Dicks. For rail employees now I am talking about.
    SAMMON; That is why my general manager is sending his 
inspectors out, to make sure that the training that has been in 
place from the rail industry is effective and in place in the 
field.
    Mr. Dicks. But we are not requiring it.
    Mr. Sammon. We are, in terms of--
    Mr. Dicks. Mandatory. In other words, a rule that you have 
to do it.
    Mr. Sammon. Right. Right.
    Mr. Dicks. Let me ask you one quick thing, Mr. Chairman. 
What about ferries? I come from the Pacific Northwest, the 
Bremerton area. Who is in charge of ferry security?
    We have had some issues out there, as you know. And I just 
wanted to know, is TSA--I know the Coast Guard has probably 
been playing the lead role here, which is probably appropriate. 
But who is supposed to be in charge of this?
    Mr. Sammon. Well, in most areas, the Coast Guard. But there 
are grants that are applicable, in terms of security grants 
that TSA direct for that area. But generally, in many of the 
maritime areas, the Coast Guard does have a lead role, because 
there are maritime regulations that go back for many, many 
years that involve the Coast Guard.
    Mr. Dicks. Yes. Thank you. I think the program that they 
have developed is pretty good, by the way, for the ferry 
system. I mean, they have the dogs and everything. They are 
doing as much security as they can without completely 
disrupting the ferry system.
    Mr. Sammon. Yes, they are doing great.
    Mr. Lungren. Okay. I think we will try a second round here, 
and I will start off.
    Mr. Rosapep, you mentioned in your both prepared and oral 
testimony that you focus on three security priorities: public 
awareness, employee training, and emergency preparedness.
    I want to ask you about public awareness. I would dare say 
that, for most people who ride on airplanes today, they are 
aware of the threat. They would respond differently today than 
what happened on 9/11 because we recognize the tactics of the 
terrorists have changed.
    But it strikes me that the average person who rides on mass 
transit probably doesn't have that same awareness of what the 
threat would be, how to respond to it, what they should do.
    When you say that your agency is involved in public 
awareness, what do you mean by that?
    Mr. Rosapep. The primary transit awareness program is the 
Transit Watch program, which actually is now jointly being 
funded by DHS and DOT. That program was started a few years 
ago.
    Locally, if you go Metro, you hear the warning signs all 
the time, you know, looking for unattended bags, looking for 
suspicious behaviors, trying to get people to understand what 
to look for; if they see it, who do they report that 
information to.
    Mr. Lungren. Again, what are the metrics on that?
    I mean, sometimes I see we have created scenarios by 
regulation that are so broad that, after a while, people don't 
pay any attention to them. If you tell everybody--for instance, 
in my home state of California where, under Prop 65, we have to 
warn people that you might be exposed to certain cancer-causing 
agents at very, very, very low amounts, but we require every 
hotel, every convenience store, every supermarket to post that, 
people walk by it, they don't pay any attention, it doesn't 
mean anything to them.
    There are other parts of Prop 65 that work, but in that 
regard we have overdone it so that nobody pays any attention.
    Has there been any study to go back and say, ``Hey, these 
notices of people to do that actually caused them to be aware 
of that?'', number one.
    And number two, do you have anything that shows you how 
well passengers are responding, that is, are reporting when 
there does seem to be a suspicious package someplace?
    Mr. Rosapep. We haven't completed a formal assessment of 
that program, but that is exactly the type of thing we need to 
do as these programs develop, is to determine do they get stale 
and no one is paying attention to them anymore.
    I think, just some of the feedback we have been getting is, 
transit agencies are getting lots of calls about looking at 
suspicious packages, unattended bags left on transit vehicles. 
So that message is still alive and is still out there, and 
people are paying attention to it.
    So at this stage of the game, I don't think it is a stale 
message.
    We have added new wrinkles to it this year, again, that we 
want the agencies to start emphasizing not only the unattended 
bags but getting messages out there about how to evacuate the 
systems if it is necessary. I think that is particularly an 
area where most people don't pay any attention to it; they 
don't want to think about it.
    Mr. Lungren. Yes, I mean, if you would compare that to 
airlines, I would suspect most people, even though we kind of 
have our eyes glazed over when they talk about us sitting in 
the emergency exit rows and when they give the demonstration, 
most people, despite themselves, are paying somewhat attention, 
know where they are supposed to follow, how they are supposed 
to go, and those sorts of things.
    But I don't sense the same thing on mass transit.
    Mr. Rosapep. Oh, I think you are absolutely right, which is 
why, again, the new version of Transit Watch for this year that 
we are just rolling out now is starting to put emphasis on the 
agencies developing and communicating the evacuation plans for 
their customers and trying to get the word out so they 
understand how it works.
    I think that is going to take some time. You know, every 
system is a little different, so there is not one standard way 
of how do you evacuate these systems. But I think some 
systems--and Washington Metro, locally, is putting some 
emphasis on the whole evacuation part of it.
    I think, as we learn from some of these efforts, we can 
exchange what works best between other systems across the 
country. But it is a--
    Mr. Lungren. Well, just a for instance, I would assume that 
certain things that you do if you are in a tunnel are different 
than the things you would do when you are not in a tunnel.
    Mr. Rosapep. Oh, absolutely.
    Mr. Lungren. And I am not sure that I have ever heard 
anybody, when I go on a mass transit system, anybody say that, 
explain to me what I should or should not do, as opposed to 
when I just get on and you tell me, ``Look for suspicious 
packages.'' It just seems to me to be a total sense of 
unawareness.
    I mean, we have all been in systems where they slowed down 
in a tunnel and they announce to you that they have got a 
couple trains ahead of you, you are going to have to wait, and 
you sit there in darkness--well, you are not in darkness, but 
it is dark outside the cab--and, frankly, your reaction is, 
``What would I do if I were told to evacuate?'' I wouldn't have 
the foggiest idea, I think most people sense. Whereas, on an 
airplane, I think people at least have some sense.
    And I guess what I am saying is there is a huge cleavage 
between where we are with airlines and where we are with mass 
transit, just in terms of public awareness and, I think, public 
confidence if you had a crisis.
    Mr. Rosapep. I am in agreement with you on the whole 
evacuation part of things. There is a lot more work to be done 
in that area.
    And, again, the changes we are doing to Transit Watch for 
this year is just the beginning, I think, of what needs to be 
done.
    Mr. Lungren. Okay.
    All right, Ms. Sanchez is recognized for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Last year, Chris Kozub of the National Transit Institute 
testified before our committee on training for mass transit 
employees. In his testimony last year, he stated that the NTI 
and FTA's training had reached about 20 percent of the transit 
employee workforce, which we believe is about 300,000 people.
    And, as of today, that number would be a little bit more 
than 30 percent. NTI is not even near the halfway point of 
getting this security training done.
    So may I ask both Mr. Sammon and Mr. Rosapep, what steps 
have been taken to reach the remaining 70 percent? And in what 
time frame do we think we are going to get these people the 
security training we would like to see them have?
    Mr. Sammon. Thank you. That is a very good question, and it 
is one of the things that we are concerned about.
    And, again, that is why we want to refocus the grants 
program to make sure that the eligibility for the grants is 
tied to training. And it may turn out that a large portion of 
the grants program turns from capital to training.
    But we do expect that the training component of this has to 
be a fundamental baseline that people meet before we go off and 
buy complex or other hardening systems or other security 
systems. If the employees aren't trained, we think that they 
are the front line and the first requirement before we look at 
grants.
    Ms. Sanchez. And so, what is the timeline? I mean, are you 
going to get the 70 percent that still aren't trained at least 
one training class by the end of this fiscal year coming up? 
Or--
    Mr. Sammon. No, I doubt that. I would say that you will 
get, as people become aware of the changing guidelines, that 
you will have more people trained.
    The transit workforce is--the airline workforce, you are 
dealing with a controlled environment. You have a controlled 
plane, you have a controlled airport. It is much more 
controlled. In transit, you have buses running all over the 
place. You have stops. We haul, in transit, many more times the 
ridership than we do in air.
    So I would say it is going to take more time.
    Ms. Sanchez. But you don't have any set metrics, any 
milestones? You haven't even projected this out?
    Mr. Sammon. Right now what we are doing is taking an 
assessment. We expect to have, as an assessment, by the end of 
the year, for many of the properties, to know where their 
training stands and the types of training, whether it is 
awareness training or response training. And we are going to 
start there and use that for the grants process--
    Ms. Sanchez. Let me ask a quick question before I have Mr. 
Rosapep answer this previous question.
    TSA employs over 40,000 people. We know that the majority 
of these people are related to aviation security. In fact, from 
the numbers that I have, only 10 people work in the mass 
transit section at TSA.
    Why are there only 10 people?
    Mr. Sammon. There are 10 people in mass transit; there are 
about 10 or 12 in rail. Each of the policy areas has a limited 
number of people. The 40,000 people are largely baggage 
screeners and passenger screeners that are out in the field at 
airports--the screeners, their supervisors and so on. And that 
is the majority of the expense that TSA has there. But--
    Ms. Sanchez. So you are telling me that in TSA, most of 
these people are actual people hands-on. And, while you only 
have 10 people who are planning the mass transit section, and 
you have 10 people in the rail section, so does that mean you 
only have 10 people in management for TSA that aren't actually 
baggage checkers or security checkers? I mean, what is the 
number for the aviation component?
    Mr. Sammon. That is a good question. The comparable number 
of people in airports is five. The comparable number of people 
in airlines is under 10.
    So to make that comparison is not a direct comparison, but 
the number of policy-planning people in airports and airlines 
is under 20. And it is about the same number of people in mass 
transit and rail.
    Ms. Sanchez. But you have the same number for mass transit 
in the entire United States, not per airport.
    Mr. Sammon. No, no, no. What I have in TSNM that you are 
comparing the 10 people from mass transit and rail, the 10 
rail, 10 mass transit, I have approximately 10 for airlines and 
approximately five for airports.
    Ms. Sanchez. So you only have 15 in total nationally?
    Mr. Sammon. That are at the TSA office that do the same 
kind of work as the people that you are comparing for mass 
transit and rail, yes.
    Ms. Sanchez. Okay. Thank you.
    Thank you, Mr. Chairman. I see my time is over.
    Mr. Dicks. I have no further questions, Mr. Chairman.
    Mr. Lungren. Okay. Well, we thank the panel very much for 
their testimony.
    You might be advised that members may send to you written 
questions, additional questions. We would ask you to respond to 
those in writing.
    And we thank you, once again, for participating.
    We now have the opportunity for a second panel, and I would 
ask them to come forward: Mr. Ed Wytkind, Mr. John Tolman, 
Chief Polly Hanson, and Mr. Edward Hamberger.
    We thank you all for coming.
    We have a distinguished second panel to discuss the issue 
of front-line defense, security training for mass transit and 
rail employees.
    As I mentioned to the first panel, your written testimony 
will be included in the record in its entirety. So I would ask 
each of you to confine your statements to approximately 5 
minutes for summary, and then we will take questions.
    The chair is now privileged to recognize Mr. Ed Wytkind, 
the president of the Transportation Trades Department at the 
AFL-CIO, to testify. Sir?

   STATEMENT OF ED WYTKIND, PRESIDENT, TRANSPORTATION TRADES 
                      DEPARTMENT, AFL-CIO

    Mr. Wytkind. Good morning. Thank you, Mr. Chairman and Ms. 
Sanchez and Mr. Dicks. It is certainly good to be before the 
committee. Thank you for providing transportation labor this 
opportunity.
    I think, after listening to the first panel, it is clear to 
us that our government continues to do to way too much 
assessing, debating, evaluating, studying, and hiring of 
consultants to look at the problems. And we are now 5 years 
since September 11th, and rail and transit systems really 
remain unsecure still in America.
    And specifically, to the topic of this hearing, I don't 
really know what workforce our government and many of our 
employers think they are training. The workforce that I am 
talking to, the workers that I very recently spoke to about 3 
or 4 days ago, very local representatives who are workers in 
the freight and the passenger rail industry, they are telling 
me that they are not receiving training for security. And those 
that are receiving it are receiving it, kind of, second-and 
third-hand, through videos and brochures and pocket guides.
    And I have been listening for 5 years about how workers are 
training. And it was interesting, in questions asked by the 
committee to the first panel, it is kind of shocking to me to 
hear the Federal Transit Administration say that they are still 
assessing, you know, what needs to be done and how the training 
is being done in the field.
    I have a tough time evaluating what the gentleman from the 
TSA said about the grant program and how they are going to 
begin to somehow condition these grants on worker training. I 
have no confidence in that.
    The Congress has a chance to get the job done on worker 
security training after 5 years since 9/11 in the pending ports 
security bill that has now been expanded, or at least there is 
consideration of expansion, to include rail and transit in 
there. And in that bill, mandated training is what is pending 
if the bill gets completed.
    That is how you will get the next panel you have before the 
committee, perhaps in the coming months, to be able to come 
before you and talk about how workers are actually being 
trained and how they are operating under a mandate.
    Until that mandate is in place, I believe the problems that 
were very adequately raised by you, Mr. Chairman, by Ms. 
Sanchez and by Mr. Dicks--who, in a few exchanges with the 
first panel, really pointed out just how little is being done. 
And I heard a lot of double-speak and a lot of excuse-making. 
And frankly, I have been listening to that for 5 years.
    And while I may sound a little too hard-edged about it, I 
have testified many times before the House and the Senate on 
this very topic. And I started working on this issue literally 
weeks after September 11th, and it is actually shocking to me 
that we are still having a debate with our government about 
whether workers should be trained to deal with security and 
terrorism risk in the transportation system.
    I think, Chairman Lungren, your comments about some of the 
things that aren't being done to have passengers know what is 
going on around them, to understand what they ought to be doing 
in the event of an attack, it is not dissimilar to what I am 
hearing from Amtrak workers and from mass transit workers.
    To this day, at least 60 percent of mass transit workers 
are telling their union that they are not getting any training. 
To this day, Amtrak workers are still telling us that the 
training they are getting is abysmal.
    I looked at the video that the railroad industry likes to 
tout and I am sure will be touted in a few minutes. The video 
is appalling. It doesn't train workers. There is no guarantee 
that they will know what they are doing. It is, frankly, a low-
budget video that multibillion-dollar corporations ought to be 
able to do a better job of producing.
    And worst of all, no matter how good the pamphlets are, no 
matter how good the brochures are, no matter how effective the 
NTI's training curriculum is--which, by the way, they do a good 
job--if the workers at the ground level, at the rank-and-file 
level do not receive the training in classroom-style 
environment, with recurring training, with updated training, 
with security briefings for workers, with the proper 
communications tools--in addition to passengers not having the 
ability to communicate by cell, the workers don't have the 
ability to communicate with each other along much of the rail 
system. I am sure my colleague, Mr Tolman, may talk about that.
    So I had a lot of prepared remarks for this, and I did 
submit a comprehensive statement. But the panel that you had 
before us really deserve to be up here another 3 or 4 hours. 
Because it is appalling to the labor movement that we are still 
debating, 5 years after 9/11, about whether workers ought to be 
trained to deal with security risks in the United States of 
America.
    I don't know why we are still there. I am proud to see that 
the Congress is stepping in to try to fill the gap. But it 
really is time to get the job done and have workers in this 
country trained.
    Thank you for allowing me the time.
    [The statement of Mr. Wytkind follows:]

                   Prepared Statement Edward Wytkind

    Chairman Lungren, Ranking Member Sanchez, and Members of the 
Subcommittee, on behalf of the 31 member unions of the Transportation 
Trades Department, AFL-CIO (TTD), I want to thank you for the 
opportunity to testify today at this important hearing on security 
training for workers on our nation's railroads and public 
transportation systems.\1\
---------------------------------------------------------------------------
    \1\ A complete list of unions affiliated with TTD is attached.
---------------------------------------------------------------------------
    TTD's member unions represent hundreds of thousands of bus, subway, 
light and heavy rail operators, clerks and maintenance employees at 
transit, commuter and freight rail systems across the country, as well 
as virtually all workforces at Amtrak. These workers are literally on 
the front lines of our battle to keep our transportation networks 
secure each and every day and no one is more vested in improving our 
lines of defense against those who wish our nation harm.
    Five years have passed since the September 11, 2001 terrorist 
attacks on U.S. soil. In this five-year period alone, we have witnessed 
four brutal, deadly terrorist attacks on major transit systems in 
countries across the globe. The July, 2006 attacks in Mumbai, India 
claimed the lives of nearly 200 people and injured over 700 more. Last 
year, the London Underground and bus systems were rocked by a series of 
explosions in which 56 people died and over 700 were injured. In 2004, 
a bomb in a Moscow Metro rail car killed 39 people and wounded 129 
others, and a coordinated series of detonations on four commuter trains 
in Madrid killed 191 victims and injured over 1,500 more.
    It is difficult to believe, but these horrific annual wake-up calls 
have not been enough to spur this Administration to take action on 
transit and rail security. Obviously, public transit and rail systems 
are by their very nature attractive targets for terrorism--they move 
masses of people, are highly visible and exposed, and are integral to 
the smooth functioning of both communities and commerce. Yet the 
federal government still has not stepped in to provide the necessary 
funding, oversight, and guidance to ensure that railroads and transit 
systems address their immediate security needs.
    Transportation labor has testified numerous times before Congress 
to chronicle the unacceptable security gaps that continue to exist in 
surface transportation. Staggering funding deficiencies are just the 
beginning--the fact that we spend $9 per airline passenger but just one 
penny per rail and transit passenger on security is a frequently-quoted 
statistic, but it bears repeating. In addition, vulnerable targets have 
not been hardened, access control at key facilities is lacking, and 
security plans by railroads and transit systems have yet to be adopted 
and implemented with federal oversight. These and other shortfalls are 
well documented in the excellent report, Detour Ahead: Critical 
Vulnerabilities in America's Rail and Mass Transit Security Programs, 
produced by Ranking Member Thompson and others on this Committee.
    Yet today I am here to focus on one fundamental aspect of enhancing 
security--employee training. Preparing hundreds of thousands of transit 
and rail workers in the event of a terrorist threat or attack within 
the U.S. is a vital component of surface transportation security. It is 
common sense that training each and every frontline employee is a 
highly effective way to secure and safeguard our transit and rail 
networks.
    Not only do the men and women who work on buses, subways, and 
railways deserve to be prepared, worker training is also a sound 
investment of security dollars. With the proper training, frontline 
workers are well positioned to spot potential security breaches or 
other warning signs of a potential problem. As the eyes and ears of 
their workplaces, they are often the first to discover suspicious 
activities or threats, and are the first to receive reports from 
passengers. These employees need to know how to recognize a potential 
problem, what protocols to follow for reporting and responding to 
potential threats, and how to protect themselves and their passengers 
from harm.
    In the event of an incident or attack, workers are the first on the 
scene--even before police, fire fighters, and emergency medical 
responders--and what they do in the first few minutes is crucial to 
minimizing destruction and loss of life. On the transit and passenger 
rail side, workers are often called upon to evacuate passengers away 
from an incident. On the freight railroads, workers are needed to help 
mitigate damage to facilities and equipment. Training will allow these 
workers to quickly and efficiently handle the security scenarios they 
confront on the job.
    It is well documented that real security training works. According 
to a study by the Volpe Center, ``probably the most significant factor 
in determining whether a transportation employee makes a helpful or 
harmful decision during an emergency is training. Trained and alert 
transportation professionals can make the difference between success 
and disaster.'' Likewise, Rafi Ron, former Director of Security at Tel-
Aviv Bun-Gurion International Airport has testified before Congress 
that ``training provides the skills and confidence. . .to employees who 
are present at every point in the system. No one is in a better 
position to recognize irregularities on the ground than the people who 
regularly work there.'' We could not agree more with these strong 
endorsements of training.
    Even officials from the Federal Transit Administration (FTA) and 
the Transportation Security Administration (TSA) have testified before 
Congress on the need for and the inherent value of worker security 
training. In fact, I am sure that in their testimony here today you 
will hear those exact sentiments. Yet while statements and press 
releases from the Administration say all the right things, too little 
has been done to actually ensure that employees receive adequate 
security training. The problem is not that good training programs have 
not been developed. The problem is that if railroads and transit 
systems are not required to provide security training, it will not be 
universally implemented by systems across the country.
    The National Transit Institute (NTI) has taken the lead in 
developing voluntary training courses and materials that teach workers 
to improve their ability to observe, recognize, and report suspicious 
objects and activities, to be more aware of pre-attack activities, and 
to spot the warning signs of potential threats. Tens of thousands of 
transit employees on various systems around the country have had access 
to some form of these training materials.
    However, even this only represents approximately 30 percent of the 
transit industry's total workforce, according to testimony last July by 
Chris Kozub, Associate Director of Safety and Security at NTI. A recent 
survey of transit workers conducted by the Amalgamated Transit Union 
(ATU) also found that even five years after 9/11, approximately 60 
percent of ATU members working for transit systems in the U.S. remain 
untrained. Even the best programs will have no effect--and will not 
enhance security--if they are not implemented and used to train all 
workers.
    This low rate of training is even more staggering given that the 
NTI security training programs are available to transit agencies at no 
charge. Even with the existence of free programs that can be conducted 
on site and tailored to the needs of each agency, many transit systems 
continue to resist calls to train their employees because of the 
additional costs associated with keeping the buses and trains running 
during training sessions. Certainly, there are systems like WMATA here 
in Washington, D.C. and the Los Angeles Metro that have trained their 
frontline employees without a mandate in place, and we applaud these 
efforts. Unfortunately, they are clearly the exception rather than the 
rule. In fact, WMATA is a unique case because, as it is located in the 
nation's capitol, the system has received record amounts of funding 
from DHS for security enhancements. Experience dictates that leaving 
the choice up to industry does not lead to a sufficient number of 
workers being trained. Congress must step in and extend this crucial 
instruction to all transit workers.
    On this point, I would like to note that this Committee included 
language requiring the Department of Homeland Security (DHS) to issue 
guidelines on rail and transit worker training during markup of the DHS 
reauthorization bill. While we support the inclusion of language in 
Section 903 of this bill (H.R. 5814), this provision falls short of 
requiring transit systems and railroads to conduct training. Instead, 
we urge the Committee to support an approach, such as the provision 
included in the security bill introduced by Ranking Member Thompson, 
Representative Loretta Sanchez and others (H.R. 5714) to mandate 
training. In addition, the Transportation and Infrastructure Committee 
has unanimously passed a transit security bill (H.R. 5808) that 
includes similar language requiring transit worker training.
    The reality on the freight and passenger rail side is even more 
astounding, where workers are receiving virtually no security training. 
Rail workers continue to tell us that if they get any training at all, 
it consists of a pamphlet or a short video on suspicious packages that 
offers vague, and often conflicting, guidance. I have seen one of these 
videos and it does little to teach workers how to be more aware of 
their surroundings in and around rail cars, yards, and maintenance 
facilities or how to spot vulnerabilities--and certainly not what to do 
or who to communicate with about a security breach. The training 
materials are not tailored to any specific job responsibilities and are 
not designed to impart any specific skills--they simply tell workers to 
be vigilant. There is absolutely no way that this constitutes 
meaningful training.
    Let me give you just one example I recently heard from one of our 
members about why security training--and treating workers as partners--
is so critical. There have been several instances of bomb threats on 
Amtrak trains, during which crew members were instructed to remain on 
the trains without any information or knowledge of what was happening. 
Passengers were evacuated from the train and surrounding platforms 
while security forces conducted a sweep of the area. This is clearly 
unconscionable from a worker safety perspective. But more broadly, 
leaving these workers to fend for themselves without protocols to 
communicate with law enforcement personnel or without a way to provide 
assistance based on what they could have witnessed on the train also 
creates a huge disconnect in our efforts to strengthen the security of 
passenger rail.
    We understand that Amtrak and the Association of American Railroads 
(AAR) have partnered with NTI and TSA to develop a computer-based, 
system security training program for all passenger and freight railroad 
employees. Amtrak has alleged that at least 10,000 employees had 
received this training as of the end of last year and that the intent 
was to have workers do this training at their worksites during layovers 
or after hours. Yet, I hear from our members at Amtrak that in most 
places, employees have absolutely no access to a computer, let alone 
the information of how to log in to the Amtrak intranet and receive 
training. Therefore, if they are even being given the information, 
workers are being asked to undergo training on their own initiative and 
on their own time. And despite the claims that workers had received 
training materials last year, most of our members received a pamphlet 
on system security awareness--but it was mailed to their homes just 
last week.
    Freight railroad employees have had even less access to security 
training--despite what you may hear from my fellow panelist from the 
AAR. These employees work in tunnels, in unsecured yards, and perform 
critical maintenance at facilities without restricted access, yet they 
have not been told by their employers what protocols are in place 
should an incident or threat arise, or should they see something out of 
the ordinary. The lack of training for these employees is even more 
intolerable since there is absolutely no reason why the freight 
railroads cannot leverage the resources to provide real security 
training for its workers. Unlike public authorities that are dependent 
on government grants to implement training, these multi-billion dollar 
corporations that are awash in cash can certainly afford to continue to 
run the trains while paying for on-the-job training for its workforce
    To the extent that the partnership with NTI improves training 
materials available to rail workers, we are clearly supportive. We 
caution, however, that computer-based training materials are a good 
supplement to, and not a substitute for, a live training course. 
Although an interactive computer program is better than being told to 
watch a video, this type of training does not provide workers with the 
opportunity to ask questions or actively apply the information to their 
particular workplaces. Security training cannot be a one-time, check-
the-box exercise for employers. Workers cannot be expected to retain 
and apply skills which they were exposed to one time for the remainder 
of their work tenure and refresher materials are critical to make sure 
workers are most effective on the front lines.
    More to the point, one only need look at what has happened on the 
transit side to know that even with the best programs available on the 
rail side, unless frontline employees are required by TSA to undergo 
training, there is little reason to believe that they will receive it. 
My members find it difficult to believe that the railroads, who have 
argued since 9/11 that mandatory training is too burdensome or that 
training is already being done and therefore no federal intervention is 
needed, have had a sudden change of heart. Instead, Congress must step 
in and instruct TSA to ensure that worker training actually gets done.
    Finally, I would like to note that this Committee is on record in 
support of mandatory security training for port employees. Thanks to 
the leadership of Representatives Reichert and Pascrell, an amendment 
was adopted during full Committee consideration of the port security 
bill (H.R. 4954) to require DHS to develop guidelines for a port worker 
security training program. While the final conference report is being 
negotiated as I speak, we understand that worker training language, 
which was also included in the Senate bill, will be retained. Moreover, 
a Senate Commerce Committee rail security bill was included as an 
amendment to the port security bill during Senate floor consideration. 
This amendment also includes a worker training mandate for the rail 
sector. We strongly support the inclusion of training language for all 
workers--port, rail, and transit--in a final conference report on port 
security.
    Arming frontline transportation employees with the knowledge of how 
to spot and react to potential threats and how to protect themselves, 
their passengers and their workplaces in the event of an emergency is a 
fundamental, common-sense security enhancement. Workers must be treated 
as partners in the battle to protect our vulnerable rail and public 
transit systems, and only through training will they be prepared to do 
so. I urge this Committee and this Congress to pass legislation 
requiring security training for rail and transit workers and to remain 
vigilant in overseeing that this requirement is fully implemented.
    Thank you for the opportunity to share transportation labor's views 
today.

                           TTD MEMBER UNIONS

The following labor organizations are members of and represented by the 
                                  TTD:

        Air Line Pilots Association (ALPA)
        Amalgamated Transit Union (ATU)
        American Federation of State, County and Municipal Employees 
        (AFSCME)
        American Federation of Teachers (AFT)
        Association of Flight Attendants-CWA (AFA-CWA)
        American Train Dispatchers Association (ATDA)
        Brotherhood of Railroad Signalmen (BRS)
        Communications Workers of America (CWA)
        International Association of Fire Fighters (IAFF)
        International Association of Machinists and Aerospace Workers 
        (IAM)
        International Brotherhood of Boilermakers, Blacksmiths, Forgers 
        and Helpers (IBB)
        International Brotherhood of Electrical Workers (IBEW)
        International Federation of Professional and Technical 
        Engineers (IFPTE)
        International Longshoremen's Association (ILA)
        International Longshore and Warehouse Union (ILWU)
        International Organization of Masters, Mates & Pilots, ILA 
        (MM&P)
        International Union of Operating Engineers (IUOE)
        Laborers? International Union of North America (LIUNA)
        Marine Engineers? Beneficial Association (MEBA)
        National Air Traffic Controllers Association (NATCA)
        National Association of Letter Carriers (NALC)
        National Conference of Firemen and Oilers, SEIU (NCFO, SEIU)
        National Federation of Public and Private Employees (NFOPAPE)
        Office and Professional Employees International Union (OPEIU)
        Professional Airways Systems Specialists (PASS)
        Sheet Metal Workers International Association (SMWIA)
        Transportation <bullet> Communications International Union 
        (TCU)
        Transport Workers Union of America (TWU)
        United Mine Workers of America (UMWA)
        United Steel, Paper and Forestry, Rubber, Manufacturing, 
        Energy,
        Allied Industrial and Service Workers International Union (USW)
        United Transportation Union (UTU)

    Mr. Lungren. Thank you, Mr. Wytkind.
    And now the chair would recognize Mr. John Tolman, the vice 
president and national legislative representative of the 
Brotherhood of Locomotive Engineers, to testify.

     STATEMENT OF JOHN TOLMAN, VICE PRESIDENT AND NATIONAL 
LEGISLATIVE REPRESENTATIVE, BROTHERHOOD OF LOCOMOTIVE ENGINEERS

    Mr. Tolman. Thank you, Mr. Chairman Lungren and Ranking 
Member Sanchez and members of the committee. I appreciate the 
opportunity to be here today, and I appreciate the interest 
that Congress has taken on this issue.
    I could almost echo my colleague Ed Wytkind's testimony to 
every word he said. However, I did prepare a brief statement, 
and I will run through it.
    I represent approximately 70,000 members of the Teamsters 
Rail Conference, which is made up of Brotherhood of Locomotive 
Engineers and Trainmen and Brotherhood of Maintenance of Way 
Workers.
    The issue of rail security is of vital concern for our rail 
workers and general public. And each and every day, we are on 
the front lines of our nation's transportation system and see 
the woeful lack of security on the railroads.
    The lack of security is more than just troubling; it is 
tragic. It is tragic because we have seen the damage that can 
be done by these accidents on the railroads and shudder to 
think of the damage that could be wrought by the terrorists or 
sabotage.
    It is frightening to think today that, after more than 250 
terror attacks on railroads worldwide from 1995 to 2005?since 
June of 2005, we have seen attacks in London, India. And in the 
past 11 years, there has been only one successful attack in the 
United States, and that is in Hyder, Arizona, on October 9, 
1995. It killed an Amtrak employee and injured 78 other people. 
This case has not been solved today. And more recently, there 
have been plans uncovered--there were attempted attacks on New 
York subways on three different occasions.
    The frequency and severity of the attacks on railroads 
worldwide and here at home demonstrate the urgency for change 
in the way the rail security system works. However, our current 
regulations are severely inadequate.
    As you know, the Department of Homeland Security and 
Transportation Security Administration spend $9 per day per 
passenger on security but only one cent per rail and mass 
transit passenger. This is a pittance when compared to the 
number of riders each day on our nation's rail and mass 
transit.
    Each weekday, 11.3 million passengers in 35 metropolitan 
areas in 22 states use some form of rail or mass transit. These 
passengers ride over trains that cover 10,000 miles of commuter 
rail and urban rail lines.
    The very nature of the rail system makes it vulnerable for 
attack. In addition to more than 10,000 miles of commuter rail, 
urban rail lines, there are over 300,000 miles of freight rail 
lines. These lines are open and easily accessible to the 
public.
    In response to these concerns, we have taken a number of 
actions. For example, the BMWE and the BLET have drafted model 
security legislation. There has been introduced at state level 
in every section of the country. This legislation, we believe, 
would accomplish, among?most important is training and whistle-
blower protection.
    Also, in May, a meeting with the Federal Railroad 
Administration Rail Safety Advisory Committee that two of our 
state legislative directors made a presentation, currently 
available with a locking device for locomotive automatic brake 
valves. These locks that would prevent an unauthorized person 
from moving a locomotive are already in use in some European 
countries and other parts of the world.
    Ultimately the strongest response to potential security 
threats faced by the railroad and transit industries begin in 
this House. And we applaud this committee for taking this issue 
up. We would ask for your consideration for H.R. 4954. We 
believe that that addresses some of our concerns.
    When we did a survey of over 4,000 of our members, 84 
percent of them said they received absolutely zero training 
post-9/11. And that was in 2004-2005. This is a major concern 
for us, and we look forward to working with you to try to help 
correct this issue today.
    Thank you very much.
    [The statement of Mr. Tolman follows:]

                  Prepared Statement of John P. Tolman

    Mr. Chairman, Mr. Ranking Member, and the members of the committee, 
I would to thank you for inviting me here today to testify on the issue 
of railroad security. On the behalf of the 39,000 members of the 
Brotherhood of Locomotive Engineers and Trainmen--and more than 70,000 
Teamsters Rail Conference members--I would like to thank you for your 
interest in this subject.
    The issue of railroad security is of vital concern to all railroad 
workers, including Teamster Rail Conference members represented by the 
BLET and the Brotherhood of Maintenance of Way Employes Division 
(BMWED). Each and every day, we are on the front lines of the nation's 
transportation system and see the woeful lack of security on our 
railroads. This lack of security is more than just troubling; it is 
tragic because we have seen the damage that can be done by accidents on 
the railroads and shudder to think of the damage that could be wrought 
by terrorism or sabotage.
    It is frightening to think that there were more than 250 terror 
attacks on railroads world wide from 1995 until June of 2005. Since 
June 2005, we have seen attacks perpetrated in London and Mumbai, 
India. In the past 11 years, there has been one successful attempt to 
attack a railroad in the U.S. and several more attempted attacks. The 
attack in Hyder, Arizona, on October 9, 1995, killed an Amtrak employee 
and injured 78 other people. The case was never solved. More recently, 
plans were uncovered to attack the New York subway system on three 
different occasions.
    The frequency and severity of the attacks on railroads worldwide 
and here at home demonstrate the urgency for change in the way our rail 
security system works. However, our current regulations are severely 
inadequate.
    As you know, the Department of Homeland Security and the 
Transportation Security Administration spends nine dollars per airline 
passenger on security, but only spends one penny per rail/mass transit 
passenger. This is a pittance when compared to the number of riders 
each day on our nation's rail and mass transit systems. Each weekday, 
11.3 million passengers in 35 metropolitan areas and 22 states use some 
form of rail or mass transit. These passengers ride on trains that 
cover over 10,000 miles of commuter and urban rail lines.
    The very nature of the rail system makes it vulnerable to attack. 
In addition to the more than 10,000 miles of commuter and urban rail 
lines, there are 300,000 miles of freight rail lines. These lines are 
open and easily accessible to the general public.
    In response to these concerns, we have taken a number of concrete 
steps. For example, the BLET and BMWED have drafted model security 
legislation that has been introduced at the state level in every 
section of the country. This legislation would accomplish the 
following:
        <bullet> require rail operators to conduct a risk assessment of 
        their facilities, cargo, and hazardous material storage 
        procedures, paying special attention to storage within a 
        fifteen mile radius of a school, hospital, nursing home, public 
        utility, or public safety facility;
        <bullet> develop a comprehensive security plan, to be filed 
        with the state's Transportation Department;
        <bullet> implement a Community Protection Plan covering 
        security, training, and emergency response; and
        <bullet> provide for whistle-blower protection for all rail 
        workers and rail contractor employees.
    Also, at the May meeting of the Federal Railroad Administration's 
Railroad Safety Advisory Committee, two of our State Legislative Board 
Chairmen made a presentation on currently-available locking devices for 
a locomotive's automatic brake valve. These locks--which would prevent 
an unauthorized person from moving a locomotive--are already in use in 
some European countries and in other parts of the world.
    Ultimately, though, the strongest response to potential security 
threats faced by the railroad and transit industries begins in this 
House. We believe that the disproportionate attention to homeland 
security and concentration of federal resources in the aviation 
industry has left rail and transit vulnerable. However, the Senate 
recently acted to change that calculus, which we applaud.
    The amendment included in the version of H.R.I54 adopted by the 
Senate addresses a number of the problems regarding rail security that 
were outlined in the Teamsters Rail Conference ``High Alert'' report, 
which was based on survey responses from more than 4,000 Rail 
Conference members employed nationwide. Rail workers, who reported the 
safety and security measures in place on any one workday during a year-
long survey period, reported as follows:
        <bullet> 94% of respondents said that rail yard access was not 
        secure;
        <bullet> 83% of respondents said that they had not received 
        any, or additional, training related to terrorism prevention 
        and response during the 12 months prior to the survey;
        <bullet> 70% of respondents reported seeing trespassers in the 
        yard; and
        <bullet> only minimal security training had been provided to 
        employees who have been warned that they could be the target of 
        a terrorist attack.
    The vulnerability assessment outlined in the Senate bill would 
address key areas that the Rail Conference feels are not adequately 
handled by the industry, and requires recommendations that include:
        <bullet> improving the security of rail tunnels, bridges, 
        switching and car storage areas, other rail infrastructure and 
        facilities, information systems, and other areas identified by 
        the Undersecretary as posing significant risks to public safety 
        and the movement of interstate commerce, taking into account 
        the impact that any proposed security measure might have on the 
        provision of rail service;
        <bullet> deploying equipment to detect explosives and hazardous 
        chemical, biological and radioactive substances, and any 
        appropriate countermeasures;
        <bullet> training employees in terrorism prevention, passenger 
        evacuation and response activities;
        <bullet> conducting public outreach campaigns on passenger 
        railroads;
        <bullet> deploying surveillance equipment; and
        <bullet> identifying the immediate and long-term costs of 
        measures that may be required to address those risks.
    The employee training called for in the Senate bill is one of the 
Rail Conference's most sought after security provisions. Throughout the 
country, railroad workers have established that their employers provide 
little or no specific training for terrorism prevention or response. In 
the High Alert survey, 84% of respondents said that they had not 
received any additional training in terrorism response or prevention in 
the 12 months preceding the survey; and 99% said they did not receive 
training related to the monitoring of nuclear shipments. This lack of 
training should be of critical interest to citizens who live near rail 
yards and tracks. The workers who lack this training will be the first 
ones to respond to incidents.
    In the absence of training by the railroads, the Teamsters Rail 
Conference unions have worked together with five other unions to 
develop, on their own, a five day intensive Hazardous Materials and 
Rail Security training course for members, with funding from the 
National Institutes of Environmental Health Sciences grants. This 
training is provided through the National Labor College/George Meany 
Center in Silver Spring, MD.
    We also strongly support the ``whistleblower'' provisions included 
in the bill. Railroad workers should not--and cannot--be subjected to 
dismissal when they provide security threat information to the 
government.
    Rail labor has long expressed an interest in developing security 
training with Congress, the FRA and the carriers. We believe that the 
version of H.R.I54 adopted by the Senate should be accepted in 
conference, because--if enacted into law--it will provide us the 
opportunity to do so.

    Mr. Lungren. Thank you very much.
    And now the chair recognizes Chief Polly Hanson, Metro 
Transit Police Department of the Washington Metro Area Transit 
Authority, to testify.

    STATEMENT OF POLLY HANSON, CHIEF, METRO TRANSIT POLICE 
      DEPARTMENT, WASHINGTON METRO AREA TRANSIT AUTHORITY

    Chief Hanson. Good morning, Chairman Lungren and members of 
the committee. My name is Polly Hanson. I am the chief of the 
Metro Transit Police here in Washington, D.C. The Metro Transit 
Police was established in 1976 with the mission of providing 
the security of Metro's customers, employees, facilities, and 
revenues, and preventing crime.
    The recent bombings in Madrid and London did call for a 
top-to-bottom re-emphasis and re-energizing of our entire 
workforce on anti-terror emergency response procedures and 
training.
    We did work with NTI and FTA in the development of the 
``Warning Signs'' video and the brochures that have been 
referred to. And we do and have offered that training in 
situations where there is someone, generally a Transit Police 
officer or a trained instructor, to discuss what people see and 
to re-emphasize the procedures. We also have this on our 
intranet, so that nonoperational employees may view the video, 
which has been shown in management meetings as well. And we 
look forward to working with both FTA and NTI in the 
development of the next series of trainings or ``Warning Signs 
II.''
    We have supplemented our existing training working with NTI 
to develop specialized training for employees who maintain 
escalators, track structures, buses, and railcars. And we will 
be using fiscal year 2005 Department of Homeland Security bus 
grant money to develop anti training for not just our bus 
operators but we are going to share that with all the bus 
systems in the region that feed into Metro property.
    As the largest transit provider for the nation's capital, 
we take responsibility in homeland security with the 
seriousness it demands. Our approach to transit security 
involves partnerships with our employees, our customers, the 
Transit Police, and our other public safety partners.
    In 2004, we launched a training initiative called 
``Managing Metro Emergencies.'' It was devised and developed in 
response to both the Madrid bombings and a tremendous amount of 
criticism that WMATA received after we had to evacuate people 
from a station because of a fire.
    This training has provided training to over 2,000 regional 
law enforcement, fire, rescue, Department of Transportation, 
and Metro personnel. And it examines mitigating, evacuating, 
and recovering from a major service disruption. The course puts 
particular emphasis on enhancing the management of the 
pedestrians and vehicle traffic.
    And it was well-received by the region so much that 
firefighters in the region demanded a ``Managing Metro 
Emergencies II'' class through the Council of Governments and 
requested Urban Area Security Initiative money so that we can 
actually run that in a tabletop setting.
    Also in partnership with the Department of Homeland 
Security, we did have an opportunity to pilot and launch the 
Behavioral Assessment Screening System training. And we have 
hosted over 300 Metro Transit Police and regional law 
enforcement officers who took this highly specialized training 
to spot behaviors of would-be terrorists planning to execute an 
attack.
    We have an emergency response facility, which we opened in 
2002, that is the only transit facility of its kind in the 
nation that is available 24 hours a day, 7 days a week, to 
train emergency personnel. It includes a mock train tunnel that 
allows regional emergency responders to train for disasters 
like smoke and fire, collisions, and terrorist incidents in a 
transit tunnel environment.
    And more than 8,000 firefighters, police officers, first 
responders, FBI, Bureau of Alcohol, Tobacco and Firearms, and 
the Pentagon police have trained at this facility. And it was 
given the American Public Transportation Association's 
innovation award in 2004.
    The training facility also houses the nation's first 
passenger rail emergency evacuation simulator, which is a 
simulator which can roll a commuter rail 180 degrees in a 10-
degree increment, simulating railcar positions after 
derailments.
    And we use this rollover rig to train police, fire, and 
other first responders, and of course have invited any of our 
local colleagues like Amtrak police to come out and experience 
that training. And the FRA is going to use it to assist in 
evaluating interior design safety of inner-city and commuter 
passenger rail cars.
    We continue to be an active participant in regional 
exercises. Last weekend we sponsored a regional drill that 
provided an opportunity for region first responders to practice 
their skills in a Metro environment, using our own procedures, 
using a rescue train, testing communications. We have also 
participated in the regional drills and exercises sponsored by 
the Department of Homeland Security and the Metropolitan 
Washington Councils of Government.
    We think a critical component toward ensuring that the 
safety that we conduct involves our employees and regional 
first responders, and we also want to engage our customers, and 
we have.
    And, in fact, we encourage public announcements. And I 
heard some discussion about that, the ``See It, Say It'' 
campaign, ``Is that your bag?'' But we also have monthly open 
houses, where our safety, police and corporate communications 
personnel do hand out evacuation information. And we have also 
provided opportunities for customers to come, get on a train, 
and learn themselves how to evacuate.
    And in 2004, we launched a program called Metro Citizens 
Corps that provides Metro-specific training, ranging from rail 
safety and emergency preparedness to looking for terrorist 
activity. And more than 200 citizens across this region have 
participated in that training. And we will participate in 
retraining in a drill this Sunday as well.
    We appreciate the important contribution that training 
provides, and will continue to seek opportunities to work with 
our employees and partners, including the Federal Transit 
Administration and Department of Homeland Security, to refine, 
expand, and progress in the training arena.
    I appreciate any comments that you may have, or questions. 
And I would be happy to answer them.
    [The statement of Chief Hanson follows:]

                 Prepared Statement of Polly L. Hanson

    Chairman Lungren and Members of the Committee, good morning and 
thank you for asking Metro to testify at this hearing. I am Polly 
Hanson, Chief of the Metro Transit Police Department (MTPD) for the 
Washington Metropolitan Area Transit Authority (WMATA).

sBackground on WMATA and MTPD
    By way of background, WMATA was created in 1967 as an Interstate 
Compact agency through enactment of legislation by the U.S. Congress, 
and by the Commonwealth of Virginia, the State of Maryland, and the 
District of Columbia. The Metro System is designed to serve the 
constituencies of the National Capital Region, including employees of 
the federal government, the residents of the region, the citizens of 
our nation who come to Washington to do business with the federal 
government, and the millions of people who visit from throughout the 
world.
    Since the mid 1960's, there has been dramatic growth and change in 
the National Capital Region. As population and employment in this 
region has skyrocketed, the demands on and expectations of WMATA have 
also grown exponentially. Each day we provide 1.2 million trips on our 
rail and bus systems. We are the second largest subway system and fifth 
largest bus system in the United States. Metro is widely recognized as 
being critical to the operation of the federal government. Over 150,000 
federal employees (45 percent of the region's federal employees) 
participate in the Metrochek program. Nearly half of all Metrorail 
stations serve federal facilities, and approximately 10 percent of 
Metro's daily ridership uses stations next to the Capitol and Pentagon.
    The Metro Transit Police Department was established in 1976. MTPD 
is the nation's first non federal tri-state transit police force. We 
have authorized strength of 423 sworn transit police officers and 102 
special police officers. Our purpose is to prevent crime, protect 
Metro's customers, employees, facilities and revenues and enforce laws, 
ordinances, rules and regulations.

WMATA's Employee Security/Emergency Preparedness Training Initiatives
    The recent rail/transit bombings in Madrid and London have also 
called for a top to bottom re-emphasis and re-energizing of our entire 
workforce on anti-terror and emergency response training. Many of the 
industry's best practices have been incorporated into nationally 
available resources developed in partnership with the Federal Transit 
Administration and the National Transit Institute (NTI). Since 2003, 
all of our bus drivers, train operators and other operations employees 
have been shown the National Transit Institute's Warning Signs video, 
which covers key aspects of system security for transit employees, 
including what to look for and what to do regarding suspicious 
activity, packages, devices and substances. Last year, after the 
attacks in London, we began showing the video again to all of our 8000 
operations employees. They also receive job specific security brochures 
covering these areas. The Warning Signs video is also being shown to 
non-operations personnel, and has been posted on our internal web site 
for viewing by all 2000 non-operations employees.
    We look forward to the next version of Warning Signs being 
developed by FTA and NTI.
    We are supplementing our existing training for employees with 
additional terrorist activity recognition classes. WMATA has been 
working with the National Transit Institute to develop specialized 
training for employees who maintain escalators, track structures, buses 
and railcars. The training will review the recognition of unattended or 
suspicious items and unusual behavior. WMATA is currently using a 
portion of its FY05 Department of Homeland Security (DHS) Bus Transit 
Grant allocation towards the development of an anti-terror training 
initiative focused on bus operators. Once complete, WMATA plans to 
share the training with all the local and regional bus operators that 
feed into WMATA's bus systems.
    All of this training will serve to reinforce the need for our 
employees to respond aggressively in these situations, but it's also 
worth noting that our operations employees on a daily basis face the 
challenging task of keeping a prudent balance between implementing 
proper security safeguards and maintaining rapid transit service.

WMATA's Regional Security/Emergency Preparedness Training Initiatives
    As the largest transit provider for the National Capital Region, 
Metro takes its responsibility in homeland security with the 
seriousness it demands. WMATA's approach to transit security involves a 
partnership between employees, customers, the transit police and other 
public safety departments in the region, and the federal government. 
Our training initiatives designed to enhance both WMATA and the 
region's emergency preparedness reflect these partnerships.
    Beginning in 2004, Metro Transit Police launched a new training 
initiative entitled ``Managing Metro Emergencies.'' The training was 
devised and developed in response to the Madrid bombings as well as a 
recent series of service disruptions that forced thousands of customers 
to evacuate the Metrorail system. The ``Managing Metro Emergencies'' 
course has provided over 2000 regional law enforcement, fire and 
rescue, department of transportation and WMATA personnel enhanced 
training for mitigating, evacuating, transporting and recovering from a 
major service disruption in our system. The course puts particular 
emphasis on enhancing the management of pedestrian and vehicle traffic 
after any evacuations of rail stations. The course was so well received 
by the region that Metro will be offering a new more operational 
oriented course requested by the region's fire departments.
    Metro transit police in partnership with the Department of Homeland 
Security launched another new initiative focused on prevention and 
detection--Behavioral Assessment Screening System (BASS) training. 300 
Metro Transit Police and regional law enforcement officers took a 
highly specialized training course to spot behaviors of would-be 
terrorists planning or executing an attack, and learned how to take 
action to mitigate danger, including identifying the behavioral 
characteristics of a suicide bomber.
    WMATA's Emergency Response Training Facility opened in 2002, and is 
the only transit facility of its kind in the nation that is available 
24 hours per day, seven days a week to train emergency personnel. The 
facility includes a mock train tunnel that allows regional emergency 
responders to train for disasters such as smoke/fire, collisions and 
potential terrorist incidents in a transit/tunnel environment. More 
than 8000 firefighters, police officers and other first responders, 
including the FBI, Bureau of Alcohol, Tobacco and Firearms, and the 
Pentagon Force Protection Agency have trained at the facility. The 
facility was awarded the American Public Transportation Association's 
Management Innovation Award for 2004.
    The training facility also houses the nation's first passenger rail 
emergency evacuation simulator. The simulator can roll a passenger 
commuter rail car 180 degrees in 10 degree increments, simulating 
railcar positions after derailments and other rail incidents. Metro 
will use the ``rollover rig'' to train fire, police, and other first 
responders on the complications associated with rescuing people from a 
rail car. The Federal Railroad Administration will use it to assist in 
evaluating interior design safety of intercity and commuter passenger 
rail cars.
    WMATA also continues to be an active participant in various 
regional exercises. Just last week, WMATA sponsored a regional drill 
that provided an opportunity for the region's first responders to 
practice their skills in the Metrorail environment, along with testing 
Metro's own procedures for utilizing a rescue train. WMATA has also 
sponsored a series of table top exercises with all key regional 
players, including federal agencies, as part of our effort to enhance 
continuity of operations planning (COOP) following the September 11, 
2001 attacks. WMATA also participates in regional drills and exercises 
sponsored by the DHS, the Metropolitan Washington Council of 
Governments and various local jurisdictions in the National Capital 
Region.

Public Awareness/Education Campaigns
    A critical component towards ensuring that all the training we 
conduct with our employees and regional first responders raises the 
National Capital Region's emergency preparedness level is to also 
constantly engage our customers. WMATA has increased public 
announcements to our customers, stressing the need to be attentive to 
their surroundings. Our recent public outreach efforts include 
campaigns known as, ``See it, Say it'' and ``Is that your bag?,'' which 
was cited by former Department of Homeland Security (DHS) Under 
Secretary Hutchinson as an effective tool for raising passenger 
awareness and involvement in the transit environment. We are also 
conducting monthly ``Open Houses'' at rail stations during the morning 
rush hour. During these events, officials from the Metro Transit Police 
and our safety and communications departments are on hand to answer 
questions from customers as well as distribute emergency preparedness/
safety brochures and expanding upon emergency evacuation procedures 
that can be found at our web site: www.wmata.com.
    In 2004, Metro Transit Police launched a Metro Citizens Corps 
program that provides Metro-specific training ranging from rail safety 
and emergency preparedness and response to identification of terrorist 
activity. More than 200 citizens across the region have received the 
training. Area residents who have received specialized community/
emergency response training within their local jurisdiction are 
eligible to join the Metro Citizens Corps.

Conclusion
    WMATA appreciates the important contribution training provides 
towards enhancing our emergency preparedness and response capabilities 
and will continue to seek opportunities to work with our employees and 
many partners in the National Capital Region, including the Federal 
Transit Administration and the Department of Homeland Security to 
refine and expand upon the progress achieved to date. I would be happy 
to answer any questions posed by the Committee.

    Mr. Lungren. Thank you very much, Chief. Appreciate that.
    The chair would now recognize Mr. Edward Hamberger, the 
president and CEO of the American Association of Railroads, to 
testify.

  STATEMENT OF EDWARD HAMBERGER, PRESIDENT AND CEO, AMERICAN 
                    ASSOCIATION OF RAILROADS

    Mr. Hamberger. Thank you, Mr. Chairman. On behalf of the 
members of the AAR, thank you for the opportunity to discuss 
security training for freight rail employees this morning.
    Railroads moved forcefully and comprehensively to improve 
security immediately after the events of 9/11. We did not wait 
for government mandates to develop a comprehensive security 
plan. Indeed, immediately following the terrorist attack, we 
created a top-level security task force comprised of more than 
150 railroad customer and former intelligence personnel to 
conduct an exhaustive evaluation of freight rail security 
issues.
    The end result was the Terrorism Risk Analysis and Security 
Management Plan, a comprehensive, intelligence-driven, 
priority-based blueprint of actions designed to enhance freight 
rail security. I know, Mr. Chairman, you have received a 
briefing. I know that the majority and minority staff have 
received detailed briefings on this plan. It was adopted by the 
AAR in December 2001 and remains in effect today.
    As a result of that plan, the railroads quickly enacted 
more than 50 permanent security-enhancing countermeasures, such 
as limiting access to key rail facilities and information and 
tightening up cybersecurity procedures to eliminate access to 
critical information.
    In addition, the plan defines four progressively higher-
security alert levels and details a series of specific actions 
to be taken at each level. Railroads test the plan through 
regular tabletop exercises and drills to evaluate it and modify 
it as necessary.
    Our security plan does rely heavily on the efforts of our 
industry's dedicated and highly professional employees. They 
are, indeed, the eyes and ears in the industry's security 
effort. As was true of our overall security plan, we did not 
wait for government mandates when it came to security training 
for our employees.
    The industry's focus has been on recognize, record and 
report. The training has included what to do when an employee 
sees a stranger, suspicious activity, or suspicious object on 
rail property, to whom to report the anomaly, the need to keep 
information about train movements and cargo confidential, and 
the need to keep rail property secure and safe.
    We began implementing an employee security training shortly 
after 9/11 when the Class I railroads provided training videos 
and printed materials to all employees.
    In the materials, the railroads expressed to their 
employees three fundamental expectations that are the 
cornerstones of rail employees' responsibilities regarding 
security: Number one, do not put yourself in danger. Number 
two, report suspicious activities on or around railroad 
property. And number three, do not divulge sensitive 
information about rail operations to others.
    Over time, freight railroads began to incorporate security 
issues in a more formal fashion, for example, as part of 
employees' periodic FRA-mandated safety rules recertifications, 
as part of new-hire training, and as part of new-manager 
training.
    Many railroads have incorporated security issues into 
employees' manual of standard operating procedures.
    Moreover, as you heard on the first panel, all railroads 
are compliant with the U.S. DOT-mandated hazardous material 232 
security training for employees who handle hazardous materials.
    More recently, railroads concluded the security would be 
enhanced if rail employees' security training was more 
standardized across the industry through the use of a common 
curriculum. And that has been accomplished.
    Much of the work was done in collaboration with the 
National Transit Institute at Rutgers University, which 
developed the interactive uniform security curriculum for 
public transit employees. With NTI's assistance, we adapted 
that curriculum for use by freight rail employees.
    It includes four modules: what is security; vulnerability 
risk and threat; what to look for; and employees' role in 
reducing risk. The goal of the standardized curriculum is to 
provide rail employees of an understanding of their role and 
responsibility in system security, and how to implement the 
procedures upon detection of suspicious objects or activities.
    Also as part of the standardized curriculum, employees are 
trained how to react to threats, which may take the form of 
perceived suspicious activity, suspicious or out-of-place 
objects or vehicles, evidence of tampering with equipment, or 
warning phone calls.
    Again, railroads do not expect their employees to play the 
hero by potentially putting themselves in harm's way. Instead, 
they are expected to follow company policies and procedures, 
informing appropriate authorities of the situation, moving to a 
safe location, and awaiting further instructions.
    One hundred percent of all of our employees will receive 
this training, and there will be a written record that they 
have, indeed, receive it. It will be updated and renewed each 
year. And it also includes daily security briefings as part of 
the daily safety briefing.
    The Senate recently adopted an amendment regarding rail 
workers security training as part of the port security bill. 
Thanks to the rail industry's proactive efforts, freight rail 
security training efforts already include the elements called 
for in that legislation.
    We are proud of the success we have achieved in enhancing 
security while keeping our nation's vital rail network 
operating efficiently and safely. We will continue to work with 
Congress, federal agencies, our employees, the communities in 
which we operate, and other relevant parties to further improve 
security and safety even more.
    Thank you, Mr. Chairman.
    [The statement of Mr. Hamberger follows:]

               Prepared Statement of Edward R. Hamberger

    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to meet with you today to discuss 
rail employee security training. AAR members account for the vast 
majority of rail mileage, employees, and revenue in Canada, Mexico, and 
the United States.
    Nothing is more important for railroads than the safety and 
security of their operations. Indeed, for railroads, safety and 
security are interconnected: a safer workplace will tend to be a more 
secure workplace, and a more secure workplace will tend to be a safer 
workplace. That's why everyone should be encouraged by the fact that 
the safety of rail operations continues to improve. By a variety of 
measures, railroads are the safest transportation mode.
    In fact, according to Federal Railroad Administration (FRA) data, 
the rail industry reduced its overall train accident rate 65 percent 
from 1980 to 2005, and 15 percent since 1990. The rate of railroad 
employee casualties has been reduced 79 percent since 1980 and 69 
percent since 1990, and in 2005 was the lowest in history. Through the 
first six months of 2006, the train accident rate is 18 percent below 
the comparable rate in the first six months of 2005 and is on pace to 
set a new annual record, while the employee casualty rate is down 
nearly 10 percent and is also on pace to set a new record.
    Freight railroads are proud of these safety accomplishments. At the 
same time, though, they are keenly aware of the tension between the 
need for transportation efficiency and the assurance that our 
transportation systems are adequately protected from terrorist and 
other threats. There must be a proper balance between efforts to 
protect against terrorist acts, on the one hand, and providing for the 
free flow of goods and promoting our country's international 
competitiveness on the other.
    Below I will briefly describe efforts freight railroads have made 
to enhance security in the post 9-11 era and address the specific area 
of rail employee security training. In a nutshell, railroads expect 
their employees to avoid putting themselves in danger in the event of a 
real or perceived security-related incident; to report any suspicious 
activity on or around rail property to the proper authorities; and to 
refrain from divulging sensitive information on rail operations to 
those who have no need to know that information.

The Railroad Terrorism Risk Analysis and Security Management Plan
    Immediately following the terrorist attacks in September 2001, U.S. 
freight railroads created a top-level security task force (comprised of 
more than 150 railroad, customer, and intelligence personnel) to 
conduct an exhaustive evaluation of freight rail security issues. The 
end result was the Terrorism Risk Analysis and Security Management 
Plan, a comprehensive, intelligence-driven, priority-based blueprint of 
actions designed to enhance freight rail security. The plan was adopted 
by the Association of American Railroads (AAR) in December 2001 and 
remains in effect today.
    As a result of the plan, freight railroads quickly enacted more 
than 50 permanent security-enhancing countermeasures. For example, 
access to key rail facilities and information has been tightened, and 
cyber-security procedures and techniques have been strengthened. 
Security awareness briefings were given to railroad employees, who were 
instructed to maintain high awareness and vigilance and to immediately 
report suspicious activity.
    In addition, the plan defines four progressively higher security 
alert levels and details a series of actions to be taken at each level:
    Alert Level 1 is ``New Normal Day-to-Day Operations'' and exists 
when a general threat of possible terrorist activity exists, but 
warrants only a routine security posture. Actions in effect at this 
level include conducting security training and awareness activities; 
restricting certain information to a need-to-know basis; restricting 
the ability of unauthenticated persons to trace certain sensitive 
materials; and periodically testing that security systems are operating 
as intended.
    Alert Level 2 (which is in effect today) is ``Heightened Security 
Awareness.'' It applies when there is a general non-specific threat of 
possible terrorist activity involving railroad personnel and 
facilities. Additional actions in effect at this level include security 
and awareness briefings as part of daily job briefings; conducting 
content inspections of cars and containers for cause; conducting spot 
content inspections of motor vehicles on railroad property; and 
increasing security at designated facilities.
    Alert Level 3 means there is ``a credible threat of an attack on 
the United States or railroad industry.'' A decision to declare Level 3 
will be evaluated in light of the specificity of a threat against 
railroad personnel and facilities. Examples of Level 3 actions include 
further restricting physical access and increasing security vigilance 
at control centers, communications hubs, and other designated 
facilities, and requesting National Guard security for critical assets.
    Alert Level 4 applies when a confirmed threat against the rail 
industry exists, an attack against a railroad has occurred, an attack 
in the United States causing mass casualties has occurred, or other 
imminent actions create grave concerns about the safety of rail 
operations. Security actions taken at this level include stopping non-
mission-essential contractor services with access to critical 
facilities and systems; increasing vigilance and scrutiny of railcars 
and equipment during mechanical inspections to look for unusual items; 
and continuous guard presence at designated facilities and structures.
    Alert Levels 3 and 4 can be declared industry-wide for a short 
period of time or can be declared in a particular geographic or 
operational area (e.g., the Midwest or hazardous materials) where or 
when intelligence has identified that terrorist action against a 
specific location or operation is imminent.
    Railroads test the plan through table-top exercises twice yearly, 
and evaluate and modify it as needed to ensure maximum continued 
effectiveness.
    Access to pertinent intelligence information is a critical element 
of the plan. To this end, the rail industry is in constant 
communication with the Transportation Security Administration (TSA) and 
elsewhere within the Department of Homeland Security (DHS), the 
Department of Defense (DOD), the Department of Transportation (DOT), 
the FBI's National Joint Terrorism Task Force (NJTTF), state and local 
law enforcement, and others. A railroad police officer and railroad 
analysts who hold Top Secret clearances work with government 
intelligence analysts at NJTTF and at DHS to help evaluate intelligence 
and to serve as subject matter experts.
    Intelligence information, in turn, is disseminated through the 
Railway Alert Network (RAN), a secure 24/7 communications network 
operated by the AAR at the Secret level that links federal security 
personnel with railroad operations centers. Through the RAN, railroads 
and the intelligence community share information to maintain 
situational awareness and immediately institute appropriate alert 
levels.
    Communication is also enhanced by the Surface Transportation 
Information Sharing and Analysis Center (ST-ISAC), which was 
established by the AAR at the request of the DOT. The ST-ISAC collects, 
analyzes, and distributes security information from worldwide resources 
to help protect vital information technology systems and physical 
assets from attack. It operates 24/7 at the Top Secret level. The ST-
ISAC grew out of Presidential Decision Directive 63 (May 22, 1998), 
which recognizes freight railroads as ``essential to the minimum 
operations of the economy and government.''
    Rail security efforts strongly benefit from the fact that major 
railroads have their own police forces, and a rail security amendment 
to the port security bill recently passed by the Senate would further 
enhance the ability of railroad police to ensure rail security. This 
amendment would permit police officers in the employ of one railroad to 
exercise their law enforcement powers on the property of another 
railroad. This flexibility could prove especially valuable in the event 
of a national security threat involving an individual railroad. AAR 
strongly supports this provision.
    Notwithstanding rail industry efforts, there can be no 100 percent 
guarantee against terrorist assaults, including assaults involving 
hazardous materials (hazmat). If such an assault involving freight 
railroads occurs, railroads have well-established programs and 
procedures that can and will be invoked that are designed to respond to 
and minimize the impact of such incidents.
    In this regard, the efforts of emergency response personnel are 
critical. Railroads assist communities in developing and evaluating 
hazmat emergency response plans. Through their own efforts and the 
Transportation Community Awareness and Emergency Response Program 
(TRANSCAER), they provide basic training for more than 20,000 emergency 
responders per year.
    In addition, more than 20 years ago, the AAR established the 
Emergency Response Training Center (ERTC), a world-class training 
facility that is part of the Transportation Technology Center, Inc. 
(TTCI) in Pueblo, Colorado. The ERTC has provided in-depth hazmat 
emergency response training to more than 25,000 emergency responders 
and railroad and chemical industry professionals from all over the 
country and abroad. Most recently, the ERTC entered into an agreement 
with DHS to provide critical training for 100 new rail security 
inspectors hired by the TSA.
    The ERTC is considered by many to be the ``graduate school'' of 
hazmat training because of its focus on comprehensive, hands-on 
training using actual rail equipment. That's why the AAR strongly 
supports the Allard/Salazar amendment to the port security bill that 
would make the TTCI a member of the National Domestic Preparedness 
Consortium (NDPC), which is a group of premier institutions that 
develop, test, and deliver training to state and local emergency 
responders.

Rail Employee Security Training
    Railroad security efforts depend a great deal on the efforts of 
railroads' dedicated and highly professional employees--including 
engineers and conductors aboard trains; maintenance of way crews, 
inspectors, and signalmen working along railroad right-of-way; railroad 
police officers; and others. They are the ``eyes and ears'' in the 
industry's security effort, and we should all be grateful for their 
vigilance and care. In terms of employee security training, the freight 
rail industry's focus has been on ``see something, say something,'' and 
keep out of harm's way. The training has encompassed topics such as 
what to do when an employee sees a stranger or suspicious activity on 
rail property; to whom to report the anomaly; the need to keep 
information about train movements and cargoes confidential; and the 
need to keep rail property secure and safe.
    With 9/11, it became clear to railroads, as it did to firms in 
other industries, that security awareness would have to take on new 
importance. In response, Class I railroads soon thereafter provided a 
training video and/or printed materials to all employees--in most cases 
mailing the materials to employees' homes--that could be characterized 
as ``Security Awareness 101.'' In the materials, the railroads 
expressed to their employees three fundamental expectations that to 
this day remain cornerstones of rail employees' responsibilities 
regarding security: don't put yourself in danger; report suspicious 
activities on or around railroad property; and don't divulge sensitive 
information about rail operations to others.
    Over time, freight railroads began to incorporate security issues 
in a more formal fashion--for example, as part of employees' periodic 
FRA-mandated safety rules recertification, as part of new-hire 
training, and as part of new manager training. Many railroads have 
incorporated security issues into employees' manual of standard 
operating practices. Moreover, all railroads are compliant with U.S. 
DOT-mandated HM-232 security training for employees who handle 
hazardous materials.
    More recently, railroads concluded that rail security would be 
enhanced if rail employee security training was more harmonized across 
railroads through use of a standardized curriculum, and railroads have 
made that harmonization a reality.
    Much has been done in collaboration with the National Transit 
Institute (NTI) at Rutgers University. NTI was established under the 
Intermodal Surface Transportation Efficiency Act of 1991 to develop, 
promote, and deliver training and education programs for the public 
transit industry. Freight railroads are fortunate to have been able to 
take advantage of NTI's success in promoting safety and security in 
public transit to develop an interactive, uniform security awareness 
curriculum for freight rail employees.
    The standardized curriculum has four modules: What is Security; 
Vulnerability, Risk, and Threat; What to Look For; and Employees' Role 
in Reducing Risk. The goal of the standardized curriculum is to provide 
rail employees with an understanding of their role and responsibility 
in system security, and how to implement their companies' procedures 
upon detection of suspicious objects or activities.
    For example, one module of the curriculum focuses on what system 
security entails in a general sense--i.e., the use of operating and 
management policies and procedures to reduce security vulnerabilities 
to the lowest practical level, as well as a process focusing on 
preventing all levels of crime against people and property. Under a 
system security approach, rail employees are taught to realize that 
they and their duties are part of a larger, extensive system and that 
system security begins with the employee. To that end, employees are 
encouraged to be observant and to be familiar with their companies' 
policies and procedures in the event of a threat or incident.
    Another module of the curriculum covers how to identify suspicious 
or dangerous activities. In the case of suspicious individuals, the 
focus is on behavior--specifically, where the person is, when he or she 
is there, and what he or she is doing. Railroads know that their 
employees know their daily work area (e.g., facilities, right-of-way, 
rolling stock) better than anyone, and will be in the best position to 
know if something does not look quite right or is out of place. Thus, 
for employees, training emphasis is on being familiar with their work 
area; observing and reporting suspicious activities and objects; 
reporting missing or malfunctioning equipment; and, if appropriate and 
endorsed by their railroad's policies, approaching and engaging persons 
to resolve or confirm suspicions. However, rail employees are not to 
approach threatening people; are not to try to intervene in dangerous 
activities; are not to pick up, touch, or move suspicious objects; are 
expected to withdraw from any dangerous environment or situation; and 
are expected to report dangerous situations immediately.
    As part of the standardized curriculum, employees are also trained 
how to react to threats, which may take the form of perceived 
suspicious activity, suspicious and/or out-of-place objects or 
vehicles, evidence of tampering with equipment, phone calls or other 
warnings, or other circumstances. Again, railroads do not expect their 
employees to ``play the hero'' by potentially putting themselves in 
harm's way. Instead, they are expected to follow their company's 
policies and procedures, inform the appropriate authority of the 
situation, move to a safe location, and wait for further instructions.
    As noted earlier, the full Senate recently adopted several rail 
security amendments as part of the port security bill. The legislation 
now heads to conference with a similar measure cleared by the House of 
Representatives in May.
    Among many other things, the Senate-passed bill requires DHS to 
develop guidance for rail worker security training to include 
determination of the seriousness of any occurrence, crew communication 
and coordination, appropriate responses, evacuation procedures, 
psychology of terrorists, and situational training. Thanks to the rail 
industry's proactive efforts, the rail employee security efforts noted 
above already include these elements, and more.
    According to the Senate bill, within 90 days after guidance is 
issued, railroads are to submit their training programs to DHS for 
review. We submitted our program both to DHS and to FRA for review and 
comment in February 2006. TSA has reviewed the rail industry's training 
program, and earlier this week communicated that it is ``relevant and 
up-to-date'' and is ``helpful'' in ``rais[ing] the baseline of 
security-related knowledge.''
    Earlier this week, TSA dispatched approximately 100 security 
inspectors to rail facilities throughout the country to observe and 
evaluate railroad compliance with seven voluntary security-related 
action items. Five of these action items deal with employee security 
training.
    Under the Senate bill, within one year of a DHS review, railroads 
must complete training of all front-line workers, defined as security 
personnel, dispatchers, train operators, other on-board employees, 
maintenance and maintenance support personnel, bridge tenders, and 
others as deemed appropriate by the Secretary of DHS. Even without this 
legislation, railroads will accomplish this objective. Going forward, 
rail employee security training will be documented and records of it 
maintained.
    As the information noted above makes clear, railroads treat very 
seriously their obligations in regard to security and have made 
sustained, earnest efforts to provide their employees with the tools 
and training they need to react appropriately when security-related 
issues arise. Moreover, railroads are not standing still in this 
regard. Through their efforts with NTI and others, railroads are 
continually refining their training efforts to improve their usefulness 
and effectiveness. Railroads are also always open to reasonable, 
constructive suggestions on how employee security training can be 
improved.
    At times, though, some rail industry critics, including some 
elements within rail labor, are not always constructive or reasonable. 
Members of this committee should be made aware that most major freight 
railroads are currently engaged in negotiations concerning a new 
national collective bargaining agreement with more than a dozen unions 
representing rail industry employees. During this period of 
negotiations, union leaders have at times engaged in self-serving 
tactics aimed at the bargaining table that misrepresent the industry's 
strong record of safety and security. A case in point is a recent 
Teamsters-sponsored attack on the rail industry disguised as a 
``study'' of security gaps on U.S. railroads.

Conclusion
    U.S. freight railroads are proud of the success they achieved in 
keeping our nation's vital rail transport link open following the 
September 11, 2001 terrorist attacks. Since then, railroads have taken 
many steps to increase the security of our nation's rail network, 
including the development of a comprehensive security management plan 
that incorporates four progressively severe alert levels and the 
institution of effective employee security training programs designed 
to keep their employees safe while enhancing security. Railroads will 
continue to work with this committee, others in Congress, federal 
agencies, and all other relevant parties to further enhance the safety 
and security of our nation's railroads and the communities they serve.

    Mr. Lungren. Thank you very much, Mr. Hamberger.
    I will yield myself 5 minutes for the first line of 
questioning.
    If I had to describe the impact of the panel, it would 
remind me of an old movie that I saw years ago when I was in 
college, and the refrain used in the movie was, ``What we have 
here is a failure to communicate.'' I get different messages as 
I go across the panel from left to right or right to left. And 
I am just trying to figure out whether there is a failure to 
communicate or there is something deeper than that.
    Mr. Wytkind and Mr. Tolman, the message I got from you was 
that there has been very little, if any, training of your 
folks; that the quality of the training is not very good; that, 
unless you have absolutely classroom-setting training as 
opposed to videos or CDs or written material, they can't be 
effective.
    And, Mr. Tolman and Mr. Wytkind, both of you seem to 
suggest?well, you didn't seem to suggest, you stated?that a 
small percentage of your employees have actually received the 
kind of training that we have heard about.
    Am I missing something here? Do you have any response to 
what was said by the chief and by Mr. Hamberger?
    Mr. Wytkind. Absolutely. First of all, the comments--
    Mr. Lungren. And try and keep your comments very succinct 
so I can try and get folks to respond.
    Mr. Wytkind. I will. And the comments by the chief, we said 
in our written testimony that we applaud some of the work that 
is being done by L.A. Transit and by WMATA to try to deal with 
these training needs. It is still not 100 percent where it 
needs to be, but they have made great strides there.
    On the freight side, there is a lot of material being 
developed, there is no doubt about it. We also acknowledge that 
in our written testimony. The issue is the rank-and-file 
workers are not receiving hands-on training.
    And so, the questions need to be developed that need to 
focus more to the freight railroads of, you know, how are the 
workers being trained? Are they being put through rigorous 
training classes while on the job, or are they just being sent 
home with interactive, kind of, video/Internet programs?
    Mr. Lungren. So it is not the question that the material is 
not good. It is the question of whether there has been a 
concentration of that in an integrated program to?
    Mr. Wytkind. That is right. Although we can't embrace every 
piece of literature because we don't get asked to provide 
input. Yes, that is basically the fundamental problem, is they 
are not receiving it.
    Mr. Lungren. Okay. Mr. Tolman?
    Mr. Tolman. Yes, thank you, Mr. Chairman. I would have to 
agree with my colleague. I mean, essentially they are not 
receiving anything. Eighty-three percent of them said, in our 
survey, they weren't.
    But we took it one step further, the labor unions, and 
developed a HAZMAT training class at the George Meany Center. 
We currently do a class--we probably have about two running 
every month--to train our members. We take this very serious, 
as you do. You know, we have taken the initiative in our own 
hand. Through grant money, we have done this.
    But we are not receiving--our members are not receiving--
and I can't speak for the transit industry, because we don't 
represent transit employees, and, you know, so I--
    Mr. Lungren. Okay. Mr. Hamberger?
    Mr. Hamberger. I had the same thought run through my mind, 
as I was listening to Mr. Wytkind and Mr. Tolman, about the 
failure to communicate.
    One of the things that will come out of our effort to have 
this training, which is part of the recertification process and 
it is a very direct relationship between the trainer and the 
employee, we will have a written record. We will no longer have 
the discrepancy of whether or not the employees have received 
the training, whether or not the training is acceptable.
    We have submitted this series of four tapes to both the FRA 
and the TSA last February. We did hear from the TSA earlier 
this week. And what they said was that it was--
    Mr. Lungren. I will hold more hearings, from now on.
    Mr. Hamberger. Yes. That it was ``relevant, up-to-date and 
helpful in raising the baseline of security-related 
knowledge.''
    We are committed, as I have tried to get across in my 
testimony, to security. We understand the importance of 
training of employees in security. We believe that this 
training program is adequate.
    And, at the same time, I will refer back to Mr. Sammon's 
comments, that, beginning this week, the TSA is sending 100 of 
their inspectors out onto the freight rail properties to take a 
look at whether or not we are abiding by our commitment, which 
we have entered into as an industry with TSA, to have rail 
employee training. They are doing an evaluation and a survey of 
that beginning this week. We will have third-party indication 
of whether or not the training is being done and whether or not 
it is effective.
    Mr. Lungren. Thank you.
    Chief, I respect everything you said. And maybe it is just 
because I rarely ride the Metro here, but I do occasionally, 
but I don't--maybe I am not attentive, but when I get on, and 
if we stop under the river, frankly, I don't have a sense of 
what I would do, in terms of evacuation.
    Am I an odd person out on that, or do you think that most 
of the folks who ride your rails do have a sense of where they 
go if there is a problem?
    Chief Hanson. I think some of the messages become 
wallpaper. And I know our train operators make them because we 
write them. And our spokesperson from the police department is 
here, and if you go on the subway you hear her voice--if you 
want to. People have iPods on; they are busy reading books.
    And I know, myself, I have been accused of being mean 
because I have suggested to customers that some of this is a 
responsibility that they have to take. During an incident, I am 
not going to be there to hold everybody's hand and show them 
how to evacuate.
    And that is why we have our information on our Web site, a 
very dynamic display of how to evacuate. It is clearly posted 
in a visual way that doesn't require as much reading, in case 
English is not the primary language. And that is why we created 
this--
    Mr. Lungren. So that is where I would go find it?
    Chief Hanson. There are a number of opportunities to find 
it. And that is why we do do the outreach. And in September, 
which was National Preparedness Month, we outreached every 
week. But--
    Mr. Lungren. I am not trying to be critical. I am trying to 
figure out how we solve this problem. You have got our nation's 
capital, where you have millions of people that come as 
visitors. They don't ride it every day or every week or every 
month. They come into town, they go on their--
    Chief Hanson. Clearly they would have to follow the 
instructions of the train operator. And I do agree that 
training needs to be robust.
    Once you watch this, this is about it. Then how do you take 
it up a notch? And how you take it up a notch is by taking 
groups of employees and putting them in practical situations, 
and that costs money. And it costs overtime, because if the 
train operator, the bus operator and the transit policeman are 
in some training facility, who is providing the service? And 
the primary mission of the railroad and the bus company is to 
drive people around and give them a ride.
    And so, there is a huge expense. And if you look at the 
transit grants, listening to TSA say now they are going to make 
everybody take their transit grant money, if you only get a 
couple million dollars, poof, that is gone. And some of the 
capital investment is necessary. And there is an expectation 
that the public has that a transit property is doing 
technology, training, public service campaigns.
    So you have scarce funding spread around and diluted then. 
And being able to provide transit grant money to do backfill 
overtime is really what is going to help transit properties get 
employees in situations where they are not having to watch a 
video in the bus operators' lounge during a break and can 
actually work with first responders in a situation that 
replicates the stress and the immediate decision-making that is 
required to act the way we need people to act when there is an 
emergency.
    I think the American public is not engaged because they 
don't want to be, and particularly in this region. I think New 
Yorkers, because it happened there, they have a recognition of 
the need to be prepared that we don't sense in this region and 
other parts of America.
    But the American public does have to accept some 
responsibility for what is going to happen in an emergency. 
Because in the beginning moments, it is going to be chaotic, 
and the first responders won't be there. And that is when it is 
so necessary to be able to do what you need to do.
    Which is why we took hundreds of CERT members, the people 
we have trained to evacuate, participated in this drill where 
we had a train under the water and we had to evacuate people. 
And it took longer than we thought it was going to take. And we 
used the cache of radios that the region has, and communication 
wasn't what it should have been.
    And all of those things, which just highlight once again 
where we should be focusing our attention with our operational 
employees. The train operator didn't keep giving messaging to 
the customers. So there are issues.
    And unless you really practice them in a situation like 
that?watching a video is okay, but it is not really what you 
want to do. But the industry doesn't have the money to spend. 
And mandating that people spend their little bit of Transit 
Security Grant money I don't think is going to get us there 
either.
    Mr. Lungren. Ms. Sanchez is recognized for 5 minutes.
    Ms. Sanchez. I like this chief.
    [Laughter.]
    I don't think she said anything differently than what I 
heard out of the people who represent the workers. And I am 
sensing, from my standpoint, you know, I go up to New York 
maybe a couple times a year, and I go up to the Bay area in 
California maybe two or three times a year, and I am here. And 
once in a while, I use the transit--certainly when I am in 
those other cities. And here when I have to go anywhere off the 
Hill and the transit can be used, I use it.
    And, you know, I am actually one of those people who gets 
on in the car and I look around and see who is there, am I 
going to have any problems, you know, where are the exits. I 
listen to what the guy is saying, and I read any of the signs 
that tell me.
    But you know what? These cars can stop anywhere: under the 
tunnel, under the river, on top of a bridge or what have you. 
And then what am I going to do? I mean, as a person who uses 
these infrequently, I am relying the train operator.
    And any different station--in New York, each station is 
different. Some stations have locked stairways now because, you 
know, either cuts or security problems. They don't keep all the 
exits open, and it doesn't have a thing that says, ``Don't go 
this way.'' I mean, if you are running through, depending on 
what station you are in, you are running through, you don't 
know where to run, you don't know that the gate is going to be 
locked, if there is a fire going on.
    So you do depend on the transit workers to keep their wits 
about them, to know what they are doing, to stay there and 
continue to get everybody out, except in the case of their own 
personal safety. I can understand that.
    But, you know, if they are not--I don't expect them to know 
that off of a video. We take videos home all the time. We take 
reports home all the time. And half the time, when we take 
them, they sit there in the pile; we don't get a chance to read 
them, for whatever reason. We are supposed to read them for the 
next morning, and guess what? You are tired when you get home, 
or you have to make dinner for the husband or what have you, or 
vice versa or what have you.
    [Laughter.]
    So I am just saying that, you know, a video?
    Mr. Lungren. Thank God for microwaves.
    [Laughter.]
    Ms. Sanchez. And takeout.
    [Laughter.]
    A video isn't the same as putting the time allotted to an 
employee--not just once, but in the classroom, in situations 
where you can see he didn't keep telling the people what to do; 
it took a lot longer to get people out; the stairways were 
locked where we thought they wouldn't be; or, you know, 
everybody ran for the elevator, and the elevator didn't work; 
whatever it is.
    I mean, they need to do this, because someone like me, even 
though I get on the train and I look around and I think about 
what I am doing, I am still not going to know. And I need to 
rely on those people.
    And what I am hearing is that that just really isn't 
getting done. And the employees want it. And I am sure the 
chief wants it. But the money hasn't been dedicated to doing 
that.
    And, you know, the first 15 minutes of a disaster, whatever 
it may look like, is the time when you save lives or you don't. 
And that all comes down to who is trained and who is not.
    So we have got to figure out how we get this done, Mr. 
Chairman. If we mandate it, then we have got to figure out--I 
know the farebox recovery rates. You know, I worked in that for 
a long time. I know it is tough out there. So we need to figure 
out how--if this is a priority, how are we going to fund it.
    I would ask across the table, do you believe that the 
federal government should mandate security training for rail 
and mass transit employees?
    Mr. Wytkind. Would you like me to start?
    Obviously, from my testimony, we have been calling for a 
mandate for some time.
    And I also think there needs to be some consideration to 
the difference between the private freight rail industry and 
the public transportation industry in this country. I believe 
resources need to be provided to the metro operators around the 
country to help pay for security across the board, including 
training.
    But I also think, if you look at what the stock pickers and 
the Wall Street analysts are saying about the freight 
railroads, they can afford to train their workers. They have 
got all the money they need to train the workers in this 
country who operate and maintain the nation's freight 
railroads. And that ought to just be a very specific mandate 
and, ``You are going to do it.'' And then it needs to be 
overseen by the Department of Homeland Security and this 
committee, to make sure it is done.
    Whereas on the public transportation side, I believe you 
need to add some resources to it as well, because I do believe 
there are resource issues in these public transit operators, 
and they have to be addressed.
    Mr. Tolman. Absolutely, I agree with my colleague.
    I also do like the chief, as well. I like what she said. 
You know, money, overtime, equals training. I mean, that is 
what it is about. I just have to get my colleague, Ed 
Hamberger, to agree with me.
    You know, we have been in national negotiations with the 
railroads for the past year and a half. You know what their 
number-one issue has been? Reduce crew size from two to one, in 
the middle of national security. I think, you know, it is about 
the money.
    And you are absolutely right. First responders, we are the 
first responders. That is why we are concerned. That is why we 
are doing HAZMAT training. I absolutely agree with you.
    Thank you.
    Chief Hanson. I believe it should be mandated if it is 
funded and developed with consultation and involvement of 
stakeholders, to include union personnel.
    Mr. Hamberger. Number one, I appreciate Mr. Wytkind's stock 
picks. I will be sure to call him next time I have a spare 
dollar to invest.
    [Laughter.]
    Number two, I will not comment on what is being discussed 
by those people who are negotiating across the table in the 
round of labor discussions.
    Number three, we did not object to the legislation adopted 
by the Senate, as I indicated both in my written and oral 
statement. We believe that we are meeting the requirements put 
into the Senate bill. We believe that we are meeting the 
requirements that DHS has asked us to take on, which we have 
agreed to do on a voluntary basis and for which we pay.
    And we are meeting the requirements developed by the 
Department of Transportation, PHMSA, whatever that officially 
stands for, and the requirements that that has, the higher 
requirements for the movement of hazardous material.
    Mr. Lungren. The gentleman from Washington?
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Hamberger, it isn't mandatory, right, at this point, 
for you--
    Mr. Hamberger. The PHMSA requirements are mandatory, yes, 
sir. That is for hazardous material--
    Mr. Dicks. Hazardous material, but not regular cargo?
    Mr. Hamberger. That is correct.
    Mr. Dicks. Okay. Now, what would it cost the railroads to 
train these people?
    Mr. Hamberger. We are training them, as I indicated.
    Mr. Dicks. But you haven't got--I mean, the numbers are 
still pretty low, aren't they? These don't argue with the 
argument that only, like, 30 percent or 20 percent of your 
workers have been trained?
    Mr. Hamberger. I do take exception to that. That is not 
what my members indicate. But to set that issue aside, we have 
adopted this more formal approach, whereby every employee, not 
just those in the front line but every employee, will receive 
the training. And there will be a written record that they have 
received it when they receive it. So we disagreed--
    Mr. Dicks. Well--
    Mr. Hamberger. --on how many have been, but, going forward, 
it will be 100 percent.
    Mr. Dicks. I think what the fellows from the labor unions 
are saying is that the training, thus far, has been inadequate. 
They feel that--
    Mr. Hamberger. That is their view, obviously.
    Mr. Dicks. That is their view, that it has been inadequate, 
that it is not sufficient. And, as I understand it, now that 
they are going to make this mandatory, then the question will 
be, how long will it take you to train all of your people?
    And I am interested in the cost. I think it is important 
for the Congress to understand the cost. And I agree with the 
chief, that, in my view, the transit people are going to have 
to have help here. And you can't take the money out of all the 
capital funds; you won't have any capital projects. I mean, I 
think we have to provide the training money on top.
    Now, the railroads are probably going to have to pick this 
up, knowing this administration. So what is it going to cost 
you?
    Mr. Hamberger. Could I develop that and get back to you?
    Mr. Dicks. Yes. I think that is fine. But, I mean, it will 
cost some money.
    Mr. Hamberger. It clearly will.
    Mr. Dicks. And is that the reason why it hasn't been done 
up to this point?
    Mr. Hamberger. Well, I would disagree with the assertion 
that it hasn't been done up to this point. As I tried to 
indicate, we have done training. We have adopted this--
    Mr. Dicks. But isn't training just the video and the 
brochure? Do you have any actual facilities where you train 
people?
    Mr. Hamberger. Indeed we do. I am embarrassed that I did 
not bring it to the fore before you asked the question. We 
indeed have the world's foremost training facility in Pueblo, 
Colorado, a 56-square-mile training facility, which we operate 
under contract with the Federal Railroad Administration.
    Our hazardous materials emergency response teams are 
trained there. We train a number of emergency response units 
from around the country. In fact, many of our customers--Dow 
and DuPont--send their emergency response teams to Pueblo for 
training. And we do that--our own employees, obviously, we pay 
for.
    And if I can put a plug in, Senator Salazar did put in the 
port security bill an amendment making Pueblo eligible as the 
national defense preparedness curriculum for funding. Under 
questioning, the Department of Homeland Security admitted that 
there is a basic flaw in that program, in that there is nowhere 
to have people train on the ground, hands on, in dealing with 
exploding railcars and how to deal with emergency response for 
hazardous materials.
    So that is--
    Mr. Dicks. Well--
    Mr. Hamberger. --that is where we train.
    And I think the--if I may, sir, the issue is not every 
employee is an emergency responder.
    Mr. Dicks. No, I understand that. That is why we were 
talking about--
    Mr. Hamberger. And so, what we are doing is training the 
emergency responders.
    Mr. Dicks. So you are doing the emergency response. But the 
rest of it, you don't have facilities for, a special place 
where you are training these people, like the chief does for 
her people.
    Mr. Hamberger. It is done as part of the training, the 
recertification--
    Mr. Dicks. Is it done on the clock or off the clock?
    Mr. Hamberger. I believe it would be on the clock. Yes, it 
would be on the clock.
    Mr. Dicks. So you are paying for it?
    Mr. Hamberger. Yes, sir.
    Mr. Dicks. Okay.
    Now, Chief, let's go back to your point here. And I 
appreciate your candor and your directness in answering the 
questions.
    Am I right? Wouldn't it be better if Congress provided the 
money for the training without taking it out of your capital 
funds?
    Chief Hanson. Yes, because, in fact, the congresswoman made 
a comment about time. And the chemical detection systems--we 
know, because we have one--does save time. And in the sarin gas 
attack, it was a half an hour, 40 minutes, before they knew 
what they had. When you have a system like that, it is moments. 
Then you can shut down trains, stop trains from coming in, do 
things with your exhaust fans.
    So now if you tell people, ``You have a couple million 
dollars, but you have to spend it on training, don't spend it 
on your capital,'' people aren't going to be able to do 
everything. And, in fact, they can't do much of anything now 
with a couple million dollars, as much as cameras and other 
things cost.
    So if we are going to mandate training, it has to be 
funded. And there has to be consideration for the fact that, 
with operational employees, who, most of them are union folks, 
it doesn't matter, operational or not, they have got to be 
replaced when they are not there to run the railroad or drive a 
bus. So who is going to shoulder that cost?
    And the bottom line for the Transit Authority is that they 
can't. They would like to do it, but they can't, because there 
are other infrastructure needs--keeping the buses running, 
keeping the trains up-to-date, repairing the railroad--that 
requires that capital.
    So if we are going to mandate it, it has to be funded.
    Mr. Dicks. Well, I just want to commend the chairman, 
again, for holding this hearing. I think the chairman has 
leaned forward on all these areas. What shocks me is that this 
is like so many other areas with homeland security, where we 
are simply not doing as much as needs to be done.
    And I think, as this Congress comes to its conclusion, I 
hope we can keep doing this, Mr. Chairman, because I do think 
it has a positive effect in getting them, Homeland Security, to 
realize that they have got to do more to safeguard the American 
people.
    Mr. Lungren. Well, I appreciate the gentleman's comments. I 
just would have to make one comment, however.
    We can't gainsay the fact that we have spent, what is it, 
$18 billion from the federal government on security overall. We 
do need to spend more, but I hope we are not coming to the 
point that money is the only thing.
    Obviously you are going to have, in my judgment, 
requirements that we have to spend more money. But I would hope 
that we don't take the position that it is just a management/
employment issue or that people will not participate in 
training unless they are absolutely paid or paid overtime or 
double time or whatever it is. Because, you know, for God's 
sake, you are talking about their lives too. And I would hope 
that people would want to be involved in training programs that 
train them how to save their lives and the lives of others.
    And while money does come into it, I hope we are not going 
to just put it down to a question of money. Because, God knows, 
we will never have enough money to do everything we want to do.
    And, you know, if the administration is taking a tack, at 
least to begin the process, of leveraging money they do have to 
try and get the potential recipients of that money to start 
thinking about training as a part of that, frankly, that is a 
good thing.
    Yes, we would put more money to it, but if you have a 
certain amount of money and you go back and you look at it and 
you say, ``Hey, wait a second, we haven't paid enough attention 
on training. Let's use the money that we do have to leverage 
it''--not all for training, but, as they ask for capital 
investment, we want to make sure that they have got a training 
component--frankly, I think that is a good thing.
    It is not the adequate--it is not the total answer. But I 
would hope that it is a beginning.
    Ms. Sanchez. Mr. Chairman, may I say something?
    Mr. Lungren. Yes?
    Ms. Sanchez. I think you are right. I mean, it is always 
about resources and trying to put them in the right place and 
getting the most you can. But I have got to tell you that, 
again, if I am a rider on the system, I want that employee to 
know what they are doing, because I am depending on them and my 
life, to a large extent, may depend on their knowing what they 
are doing.
    And what troubles me is not that this would be a union 
management thing. What troubles me is that these union 
representatives are telling me, basically, that their employees 
are not confident--
    Mr. Lungren. Oh, I heard that, loud and clear. And we had 
better answer that.
    Ms. Sanchez. --that they will do the job that is required 
of them and that they want to do to save my life.
    Mr. Lungren. Absolutely.
    Ms. Sanchez. And I want that employee to be confident that 
he knows or she knows what they are doing if I am in an 
emergency and I am depending on them.
    Mr. Lungren. I agree. That is why I am heartened by the 
fact Mr. Sammon said they are going to start sending people out 
to the field to actually certify or to do evaluations to see 
whether Mr. Hamberger's folks are doing what they say they are 
doing.
    Again, not a total answer, but at least moving in the right 
direction.
    And I know Mr. Dicks has--
    Mr. Dicks. It has been 5 years, Mr. Chairman.
    Mr. Lungren. --Mr. Dicks has suggested that they do it on 
the eve of the hearing--
    Mr. Dicks. It has been 5 long years. And these gentlemen 
have followed this very closely, and they see that the 
administration continues to analyze and think but they don't 
get out and do anything. And I hope the pressure of this 
hearing, I hope at least they will start doing something at 
long last.
    Mr. Lungren. Well, we will continue having hearings.
    And I want to thank the panel. You have been very helpful 
to our consideration of this matter.
    As we mentioned, members of the committee may have some 
additional questions for you. And if they do, we would ask you 
to respond to those in writing. The hearing record will be held 
open for 10 days.
    And, without objection, the committee stands adjourned.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
